<html>
<title> - PEARCE, CORRELL AND MYERS NOMINATIONS</title>
<body><pre>[Senate Hearing 109-721]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-721
 
                 PEARCE, CORRELL AND MYERS NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   TO

 CONSIDER THE NOMINATIONS OF DRUE PEARCE TO BE FEDERAL COORDINATOR FOR 
  ALASKA NATURAL GAS TRANSPORTATION PROJECTS; JOHN RAY CORRELL TO BE 
 DIRECTOR OF THE OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT, 
    AND MARK D. MYERS TO BE DIRECTOR OF THE U.S. GEOLOGICAL SURVEY, 
                       DEPARTMENT OF THE INTERIOR

                               __________

                             JULY 20, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
31-395                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allen, Hon. George, U.S. Senator from Virginia...................     7
Bunning, Hon. Jim, U.S. Senator from Kentucky....................    19
Correll, John Ray, Nominee to be Director of the Office of 
  Surface Mining Reclamation and Enforcement, Department of the 
  Interior.......................................................    11
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Lugar, Hon. Richard G., U.S. Senator from Indiana................     8
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     5
Myers, Mark D., Nominee to be Director of the U.S. Geological 
  Survey, Department of the Interior.............................    15
Pearce, Drue, Nominee to be Federal Coordinator for Alaska 
  Natural Gas Transportation.....................................    10
Stevens, Hon. Ted, U.S. Senator from Alaska......................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    31

                              Appendix II

Additional material submitted for the record.....................    41


                 PEARCE, CORRELL AND MYERS NOMINATIONS

                              ----------                              


                        THURSDAY, JULY 20, 2006

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will please come to order. 
Welcome, Senator Stevens. Welcome, everyone. Please sit down. 
The Committee on Energy and Natural Resources will come to 
order.
    Nominating hearings today are for Drue Pearce to be Federal 
coordinator for Alaska natural gas transportation projects; 
John R. Correll to be Director of the Office of Surface Mining 
Reclamation and Enforcement in the Department of the Interior; 
and Mark Myers to be the director of the U.S. Geological 
Survey, Department of the Interior.
    The committee will come to order. We are here this morning 
to consider the nominations that I have just mentioned.
    Before we begin, I understand that our colleague Senator 
Stevens from Alaska--oh, I should have said ``colleagues,'' 
because, Senator Murkowski, you might like to also be called a 
colleague--would like to speak in behalf of the nominees. 
Senator Stevens will lead off.
    We welcome you, Mr. Chairman. Would you please begin, and 
then we will follow with Senator Murkowski. And if Senator 
Allen were to arrive, he would follow. If not, the two Senators 
I mentioned will be the Senators that will speak. The senior 
Senator from Alaska.

          STATEMENT OF HON. TED STEVENS, U.S. SENATOR 
                          FROM ALASKA

    Senator Stevens. With your permission, I'll introduce both 
Drue Pearce and Mark Myers and go to my other committee. Is 
that agreeable?
    The Chairman. Sounds fair. And that would make it 
accommodating to you, and that's fine with us.
    Senator Stevens. And I ask that my statements appear in the 
record in full.
    The Chairman. That will be done.
    [The prepared statements of Senator Stevens follow:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator From Alaska

                         ON NOMINEE DRUE PEARCE

    It is a great pleasure to appear before this Committee and 
introduce Drue Pearce, the President's nominee to become the Federal 
Coordinator for Alaska Natural Gas Transportation Projects.
    Drue and I have worked closely on issues important to Alaska since 
she filed for the Alaska State House in 1983. She was elected to the 
House in 1984 and to the State senate in 1988. During her 17 years in 
the State Legislature, she achieved several historic milestones. Drue 
became the first woman to serve two terms as Senate President--and she 
was only the second person, man or woman, in Alaska's history to have 
that honor. Drue was the first Senate President ever to adjourn a 
legislative session before the constitutional deadline. And she has the 
enviable record of having never been defeated in an election.
    Even more impressive than her historic achievements is Drue's 
proven record of leadership. As Senate President, Drue became known for 
her ability to set goals and achieve them. She kept things moving on 
schedule and was able to bring people together to achieve consensus.
    When President Bush was elected, I encouraged him to bring Drue to 
Washington, DC. I believed her knowledge of our state, our 
opportunities, and our people would be a tremendous asset for this 
administration. In 2001, Secretary of the Interior Gale Norton 
appointed Drue to the position of Senior Advisor to the Secretary for 
Alaska Affairs. In this capacity, Drue has exceeded even my 
expectations.
    I believe Drue will approach her role as Federal Coordinator with 
the commitment and dedication that have become the hallmarks of her 
career public service. Her considerable experience in state and federal 
government make her the ideal candidate for this position.
    Alaskans--and all Americans--need Drue involved in the Natural Gas 
Pipeline project. Moving this project forward will require the 
coordination of federal, state, local, and private entities. The stakes 
involved in this project are high--the timely completion of this 
project is essential if we are to keep pace with the growing demand for 
natural gas. Coordination of this project is a daunting task, and I 
trust Drue Pearce to get the job done. It is my hope the Committee--and 
the full Senate--will move quickly to approve her nomination.

                        ON NOMINEE MARK D. MYERS

    I am extremely pleased President Bush has chosen to nominate Mark 
Myers to be Director of the U.S. Geological Survey. It is an honor to 
introduce him to the Committee today.
    Mark is a respected member of our state's natural resource 
community. From 1990 through 1998, he worked as a petroleum geologist 
for the Alaska Department of Natural Resources' Division of Oil and 
Gas. He became the Director of the Division in 2001. In 2005, Mark was 
also named Alaska State Geologist and Director of the State Division of 
Geological and Geophysical Surveys. Through his work in these 
positions, he has cultivated a reputation for being able to build 
consensus. Over the course of his 22 year career in Alaska, Mark has 
earned the respect of scientists, engineers, elected officials, and 
others.
    I have personally benefited from Mark's knowledge about gas 
hydrates. It is estimated that the permafrost beneath our state holds 
590 trillion cubic feet of these hydrates. Another 32,000 trillion 
cubic feet lie offshore. These hydrates lie below permafrost and deep 
waters. When they are released, they can generate up to 180 times their 
volume in free gas. With the increasing demand for natural gas, these 
hydrates will be a valuable resource if we can figure out how to bring 
them to market.
    Mark has worked with those in the Alaska State Legislature on this 
issue. He has also advised our state's congressional delegation and our 
colleagues in Washington. In fact, he testified before this very 
Committee in 2005. I think those on the Committee will agree that 
Mark's counsel is well-balanced and indispensable.
    Mark's experience, extensive knowledge, and commitment to public 
service make him an excellent candidate for this position. I thank you 
for the opportunity to introduce him this morning, and I look forward 
to working with him upon his confirmation by the Senate.

    Senator Stevens. Let me introduce, first, Drue Pearce's 
family. Her husband, Mike Williams, is here. Her daughter, Tate 
Hanna Pearce-Williams, and her father, Phil Pearce, and her 
stepmother, Carol Pearce.
    The Chairman. Would they please stand? We thank you very 
much for coming. That means an awful lot to them, and we're 
glad that you do it in their behalf. Please sit down.
    Senator Stevens. Let me tell you, Mr. Chairman, it's a 
pleasure to be here with Drue Pearce. She's the President's 
nominee for the Federal coordinator of the Alaska natural gas 
transportation projects.
    Now, Drue and I have worked closely together for many 
years. She was first elected to the State House of Alaska, the 
House of Representatives of Alaska, in 1864, and the State 
senate----
    [Laughter.]
    Senator Stevens. Pardon me, 1984.
    [Laughter.]
    Senator Stevens. Wow, you've been around for a long time, 
right? I'm reading too many things too fast. In 1984.
    She was elected to the State senate in 1988 and she has 
served 17 years in the State senate--really, the State 
legislature, in total. And she was the first woman to serve two 
terms as the president of the Alaska State senate. And she's 
only the second person in the history of Alaska to have had 
that honor, man or woman.
    Drue was really very impressive in her State legislature 
record. She became known for her ability to set goals and to 
achieve them. And when President Bush was elected, I urged him 
to bring Drue to Washington, DC. I believed her knowledge of 
our State and opportunities to our people would be--she would 
be a tremendous asset for the administration.
    In 2001, the Secretary of the Interior, Gale Norton, 
appointed Drue to a position of senior advisor to the Secretary 
of the Interior for Alaska affairs and, in that capacity, Drue 
exceeded our expectations.
    I believe she will approach this role of Federal 
coordinator with a commitment and dedication that really 
reflects her total career. And I'm sure this committee knows 
that Alaskans and all Americans need this project. We're very 
pleased that she's willing to take on this task. The stakes 
involved in this project are very high. Timely completion of 
this project is essential to the country and to our State.
    So, I urge that you would favorably approve Drue Pearce's 
nomination as soon as possible.
    If I may, then, Mr. Chairman, I would turn to the 
nomination of Mark Myers as director of the U.S. Geological 
Survey.
    Mark's wife, Alice, is here, and their children, Justin and 
Nathan, are here. His parents, Ray and Ardell, are here. This 
is a rather extended family. So, thank you very much, Mark, for 
bringing them.
    The Chairman. Would they please stand? We welcome you very 
much and thank you for coming, all of you.
    [Laughter.]
    The Chairman. Very good.
    Now, Senator, you can proceed.
    Senator Stevens. I'll be constrained, Mr. President.
    Mark is a very respected member of the resource community 
of Alaska. He worked as a petroleum geologist for the 
Department of Natural Resources Division of Oil and Gas. He 
became the director of that division in 2001. In 2005, he was 
named Alaska's State geologist and director of the State 
Division of Geological and Geophysical Surveys. He's developed 
a reputation for gathering consensus for his positions. And 
over the course of his 22 years in Alaska, he has earned the 
respect of scientists, engineers, elected officials, and 
others.
    I personally have worked with Mark, and I know the 
committee is very interested in one of the main subjects that 
he has been working on, and that's gas hydrates.
    Beneath the permafrost of our north country, we believe, 
are 590 trillion cubic feet of frozen gas. Another 32,000 
trillion cubic feet of frozen gas is offshore. These are below 
the permafrost, and, as far as offshore, below deep waters. 
When they're released, if they can be commercialized, they will 
generate up to 180 times their volume in free gas. With the 
increasing demand for natural gas, these hydrates, I think, are 
one of the most valuable resources the United States has--an 
enormous, enormous quantity of gas in a frozen state.
    Mark has worked with the State legislature on this issue. 
He's advised us on this issue. He's testified before Congress, 
perhaps even before your committee, on this issue. I'll tell 
you, this is one of the true challenges for science in this 
country. I've been trying to get more and more companies and 
the Federal Government to commit money to the research to 
determine how to commercialize--really, how to unfreeze those 
gas hydrates. And, as they unfreeze, as I say, they expand 180 
times in their volume. This is probably--unquestionably, this 
is why I think he's an excellent candidate for this job, 
because he knows this issue well. And I look forward to working 
with him, and I'm sure this committee will look forward to 
working with him in terms of pursuing, to the maximum extent 
possible, the science involved in commercializing gas hydrates.
    I thank you very much for your courtesy. If you have any 
questions for me, I'll be glad to answer them, other than to 
explain why I went back to my childhood of 1684.
    [Laughter.]
    The Chairman. We won't inquire as to your true age.
    [Laughter.]
    The Chairman. We'll let everybody remain in a state of flux 
on that. For now, we're wondering if you had anything further 
to say.
    Senator Stevens. Well, I have this to say. I told a crowd, 
last night, that I never thought I'd be older than a President 
of the United States and his father and every member that's 
retiring from Congress this year.
    The Chairman. That's you.
    Senator Stevens. Thank you very much.
    The Chairman. Thank you, Senator.
    Now we're going to ask the junior Senator to please speak 
in behalf of the witnesses, and then we'll move right to the 
witnesses.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I think it's fair to say that this is a proud day for us, 
as Alaskans. It's not often that we have before us two nominees 
from the great State.
    I've told this committee before--and I certainly made the 
comments when Governor Kempthorne was here for his confirmation 
as Secretary of the Interior--I remarked that in Alaska we 
refer to the Department of the Interior as our landlord. I know 
my colleagues around the table have heard me point to the No. 1 
statistics so many times--we're No. 1 among the States in areas 
designated as wilderness, No. 1 in national park acreage, No. 1 
in national wildlife acreage. We are so much at the core of 
what the Department of the Interior does, certainly as we look 
to our energy storehouse, with oil, natural gas, strategic 
minerals, our coal reserves. We have just barely touched the 
surface of what Alaska has to offer and our relationship with 
the Department is inextricably intertwined there.
    In spite of the Interior Department's truly vast interests 
in Alaska, none of the heads of its bureaus or offices are from 
the State of Alaska. We have been, I believe, blessed for the 
past 5 years in having Drue Pearce serve as the senior Alaskan 
in the Interior Department.
    Drue, I believe that you have performed magnificently in 
your role as the senior advisor to the Secretary of the 
Interior for Alaskan affairs. I'm delighted. I'm thrilled for 
you that you have this challenge and this opportunity in front 
of you with the nomination that the President has made.
    I'm equally proud that the President has nominated another 
exceptional Alaskan, Mark Myers, to the post of the director of 
the U.S. Geological Survey.
    I like to brag on my State, and I like to brag on the 
people from my State, and it's very easy to do that with the 
two individuals that we have today.
    I also want to recognize and thank the families, the very 
extended families that we have here today supporting these two 
very qualified individuals. The sacrifices that you make and 
have made over the years in public service is felt by your 
families. I know that there have been some transitional aspects 
as you left your home State, or are planning on leaving Alaska 
to come and relocate here in Washington, DC. We greatly 
appreciate what you are doing, on behalf of our country, and 
the efforts that you are making.
    I want to start just by giving a little bit of background 
as to Mark Myers. You know, when you look at his 
qualifications, his resume, everything says this is a man who 
has dedicated his life, his entire career in the earth-science 
field. He has professional certifications from the American 
Institute of Professional Geologists, the American Association 
of Petroleum Geologists, past president of the Alaska 
Geological Society, numerous publications in geology. I notice, 
Mark, in your opening comments, you went back to the University 
of Alaska at Fairbanks specializing--to get a Ph.D. in geology, 
but specializing in clastic sedimentology. I have no idea what 
it is, but I was so impressed, because it sounds like a lot of 
rocks.
    [Laughter.]
    Senator Murkowski. And we want you to know and understand 
about all of the rocks.
    Mr. Chairman, I won't go through the bachelor's degrees and 
all of the professional accolades that Mr. Myers has 
accumulated over the years, other than to point out that his 
work in the earth science field has spanned some 28 years, 12 
of which have been devoted to public service. I also want to 
recognize your time in the Air Force Reserve.
    Dr. Myers has served for 8 years as a petroleum geologist 
for the State of Alaska, 2 years as the director of the State's 
Division of Oil and Gas, heading both the Division of Oil and 
Gas and our State's geological surveys. He's truly earned the 
respect of his colleagues in the State. When I worked with Dr. 
Myers when I was in the State legislature, I think it's fair to 
say that there was no partisan aspect of what you did. You 
presented the science, people respected you for that, and I 
know that you will continue to do that in your new position 
here.
    I noted that there was a letter from some of our Democratic 
colleagues in the Alaska State House of Representatives 
speaking on your behalf, and I would like to have that included 
as part of the record for Dr. Myers.
    [The information previously referred to follows:]

                                  Alaska State Legislature,
                                         Juneau, AK, June 14, 2006.
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.

    To Whom It Concerns: As Democratic leaders in the Alaska State 
House of Representatives, we are writing to encourage you to confirm 
Mr. Mark Myers' nomination as Director of the U.S. Geological Survey. 
As legislators, we worked closely with Mr. Myers during his tenure as 
Director of the Division of Oil and Gas with the State of Alaska. Even 
in trying times, Mr. Myers always maintained a high degree of 
professionalism marked by extensive knowledge, experience in his field, 
and a very high degree of personal integrity.
    Mr. Myers simultaneously served as the Director of two divisions 
within the Alaska State Department of Natural Resources--the Division 
of Oil and Gas and the Division of Geological Surveys. This dual 
appointment was an unprecedented honor and attests to his abilities and 
skills as a geologist and leader.
    Perhaps Mr. Myers' most impressive attribute is his ability to base 
his decisions on the merits of an issue and not let the pressures of 
politics affect those decisions. He is a man with strong moral fiber 
and conviction.
    We highly recommend Mr. Myers for the position of Director of the 
U.S. Geological Survey. We believe he will serve his country with the 
same professional integrity that he showed in serving our state. Please 
feel free to contact us for further information.
            Sincerely,
                                   Ethan Berkowitz,
                                           Democratic Leader,
                                   Beth Kerttula,
                                           Democratic Finance Committee 
                                               Member.

    Senator Murkowski. But as we look at the qualifications, 
and as I've said to you numerous times, I can't think of a more 
qualified individual to head our USGS. I'm delighted and proud 
that you have agreed to step forward in response to the 
President's nomination.
    And now, Mr. Chairman, just very briefly, as to my friend, 
Drue Pearce. And whereas I--where Drue and I don't go back to 
1864----
    [Laughter.]
    Senator Murkowski [continuing]. We do go back quite a ways. 
I think it was one of my very first jobs, when I was still--
well, I was in between years in college. I think I was on that 
5- or 6-year college program, and I took some time off to work 
in a bank, and Drue was my direct supervisor. That was a long 
time ago. We've both moved a little bit away from being--we 
weren't bank tellers, but we were pretty low--I was pretty low 
on that totem pole, and I appreciated the good advice and 
guidance of my supervisor there.
    But I think it's fair to say that we're pleased, from 
Alaska's perspective, to have this confirmation hearing for 
this specific position, for the director of the Office of 
Pipeline coordinator. It represents a couple of things. First 
of all, to have an exceptional Alaskan to be before us is 
something, again, we're very proud of, but it's also a tangible 
sign that progress is being made on our Alaska natural gas 
project. Already this summer, we've had a memorandum of 
understanding amongst 15 Federal agencies, where we're working 
toward getting to where we need to get with this very massive 
project, and with today's appointment--confirmation of the 
Federal coordinator to start coordinating all the permitting, 
the regulatory process that's going to be needed to get this 
project off the ground, it's very important.
    Drue's credentials are equally stellar. She holds a 
master's degree in public administration from Harvard, and a 
degree in business from the University of Virginia. Senator 
Stevens mentioned her years in the legislature. She also, when 
she was in the legislature, served as chairman of the National 
Energy Council. This was a legislative organization for ten 
energy-producing States, and she led delegations to Bolivia, to 
Mexico, talking about the oil development. So, she has very 
strong credentials and background in the area.
    When we look to this massive project that we are working 
toward on Alaska's North Slope, a project the likes of which 
this Nation, this country, this world has not seen, a $20- to 
$25-billion project, we need to have somebody with the 
experience, the knowledge, the institutional memory, the 
governmental expertise who can oversee this massive project. I 
can't think of anyone better than Drue Pearce to lead us 
forward with this, and I'm delighted that she, too, has 
accepted the President's nomination.
    I look forward to a swift confirmation for both of these 
fine individuals.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    [The prepared statements of Senators Allen and Lugar 
follow:]

  Prepared Statement of Hon. George Allen, U.S. Senator From Virginia

    It is my pleasure to introduce John Correll as the President's 
nominee for Director of the Office of Surface Mining Reclamation and 
Enforcement. John brings more than 30 years of mining experience to 
this post, as well as significant senior leadership and management 
experience. John moved to Virginia four years ago with his wife Nancy 
to take the position of Deputy Assistant Secretary of Operations for 
the Mine Safety and Health Administration in the Department of Labor.
    During John's tenure, MSHA highlighted education, training and 
compliance assistance to make sure that operators understood and were 
complying with our laws, rules and regulations. John also oversaw 
MSHA's strategic alliance program, in which the agency formed 
meaningful and productive relationships with key stakeholders and 
mining industry groups to further common goals and objectives of 
improving mineworker safety and mining operations. John's experience in 
bringing all of these concepts to fruition will help him bring similar 
successes to the Office of Surface Mining.
    As a mine safety and health professional, John's credentials and 
accomplishments are impressive. In his over twenty years in the private 
mining industry John held numerous positions and developed a reputation 
for integrity, professionalism and dedication to mine safety and 
health.
    The President's nomination of John Correll to head the Office of 
Surface Mining--and John's acceptance of that challenge--represents a 
logical progression of his drive to serve his country and the mining 
community. We should be grateful that professionals like John, with the 
highest values of experience, expertise and personal conviction are 
willing to step up and accept these crucial positions in government to 
provide expert leadership in fulfilling and enforcing our laws and 
developing improvement initiatives.
    John's distinguished record in mining, loss prevention and senior 
leadership makes him an excellent nominee for this position. I urge my 
colleagues to favorably consider Mr. Correll's nomination and quickly 
report it back to the Senate with our full support.
                                 ______
                                 
   Prepared Statement of Richard G. Lugar, U.S. Senator From Indiana

 ON THE NOMINATION OF JOHN RAY CORRELL TO BE DIRECTOR OF THE OFFICE OF 
               SURFACE MINING RECLAMATION AND ENFORCEMENT

    I am pleased to have an opportunity to introduce John Ray Correll 
to the members of the Senate Committee on Energy and Natural Resources.
    John Correll has worked for the federal government in the mining 
field for a number of years. In addition, John gained extensive 
experience working in the private sector for several coal companies. 
After receiving his Bachelors degree from Indiana State University, 
John joined the Peabody Coal Company. John continued to build on his 
experience by taking a position with AMAX Coal Industries. From 1991-
2002, John served as the Director of Safety and Workers' Compensation 
for Cleveland-Cliffs, Inc. In 2002, John was appointed to serve as the 
Deputy Assistant Secretary for Operations at the Mine Safety and Health 
Administration for the U.S. Department of Labor.
    John is joined by his wife, Nancy. They have two sons Jason and 
Terry, daughter-in-law, Tina, and two grandchildren, Alex and Max.
    Mr. Chairman, I thank you for this opportunity to introduce John 
Ray Correll to the Committee.

    The Chairman. Anything further by any Senator?
    [No response.]
    The Chairman. Then we're going to proceed.
    I hope we can move as quickly to get you confirmed. Thanks 
to your relatives who came here to show their support. You 
don't know how much support it is for them. You probably do, 
but you don't know what it means to us to see such great 
support come, probably from distances, for them. I, personally, 
consider that a very positive sign, as chairman, as I consider 
confirming these particular people for their jobs.
    The rules of the committee, applied to all nominees, 
require that they be sworn in, in connection with their 
testimony. So, would you please rise and raise your right 
hands?
    And do you solemnly swear the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Ms. Pearce. I do.
    Mr. Correll. I do.
    Mr. Myers. I do.
    The Chairman. Please be seated.
    Before you begin your statements, I will ask each of you 
three questions. They are addressed to each nominee before this 
committee. This is no different than all the others.
    First, will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress?
    Drue Pearce?
    Ms. Pearce. I will.
    The Chairman. John?
    Mr. Correll. I will.
    The Chairman. Mark?
    Mr. Myers. I will.
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict of 
interest, or the appearance of such a conflict, should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    First, start on this side. You, ma'am.
    Ms. Pearce. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest, or appearances thereof, to my 
knowledge.
    The Chairman. Thank you.
    Are you involved with, or do you have, any assets held in 
blind trust? Same nominee.
    Ms. Pearce. No, sir.
    The Chairman. We'll proceed back to you, John. Are you 
aware of any personal holdings, investments, or interests that 
could constitute a conflict, or create the appearance of such a 
conflict, should you be confirmed and assume the office to 
which you have been nominated by the President?
    Mr. Correll. Thank you, Mr. Chairman.
    My investments, personal holdings, and other interests have 
been reviewed both by myself and the appropriate ethics 
counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest, or appearances thereof, to my 
knowledge.
    The Chairman. Are you involved with, or do you have, any 
assets held in blind trust?
    Mr. Correll. No, sir.
    The Chairman. Mark Myers. Are you aware of any personal 
holdings or investments or interests that could constitute 
conflict, or create any appearance of such conflict, should you 
be confirmed and assume the office to which you have been 
nominated by the President of the United States?
    Mr. Myers. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest, or appearances thereof, to my 
knowledge.
    The Chairman. Are you involved with any, or do you hold 
any, assets in blind trust?
    Mr. Myers. No, Mr. Chairman.
    The Chairman. Now, each of you--starting with you, Drue 
Pearce, and moving this way, each of you may now make a brief 
statement. I encourage you to summarize your statement that you 
have presented for filing for the record so that we'll have 
plenty of time for questions. Starting with Ms. Pearce, will 
you begin with--followed by Mr. Correll, and then by Dr. Myers.
    Nominee statements. Please proceed.

TESTIMONY OF DRUE PEARCE, NOMINEE TO BE FEDERAL COORDINATOR FOR 
           ALASKA NATURAL GAS TRANSPORTATION PROJECTS

    Ms. Pearce. Thank you, Mr. Chairman, Senator Bingaman, and 
members of the committee, I am honored to appear before you 
today as the President's nominee to serve as the first Federal 
coordinator for Alaska natural gas transportation projects. I 
am humbled to have been selected by President Bush to establish 
a new Federal office, and promise that, if confirmed by the 
Senate, I will uphold the trust placed in me with honesty, 
integrity, and hard work.
    Senator Bunning. Mr. Chairman?
    Would you please bring your mike to--we're having--I'm 
having trouble hearing.
    Ms. Pearce. OK. Is that better, sir?
    The Chairman. Thank you very much, Senator. We'll do that.
    Ms. Pearce. I was first elected to the Alaska State 
legislature in 1984. As you all know, public service is a 
family endeavor. I would not be able to serve my State and this 
great country if I didn't have the heartfelt and steadfast 
support of my family. I am grateful that my husband, Michael, 
and our daughter, Tate Hanna, are here with me today. They 
allowed me to uproot them from our home in Alaska 5 years ago 
and are a source of daily inspiration.
    My family homesteaded in what was then the Indiana 
territory in 1808. I represent the sixth generation of Hannas 
raised on that same 1500-acre farm in what is now southern 
Illinois. My father still lives on the farm. He raises 
standard-bred horses.
    My passion for public service is rooted in the history of 
my family. My personal hero, my father, was awarded a Navy 
Cross for his heroism at Shuri Castle on Okinawa. A first 
lieutenant with the 1st Marines, he was only 22. He left active 
duty and came home to the farm to begin a new career of elected 
public service at the local level. I am proud to be his 
daughter.
    Retired Marine Colonel Phil Pearce and his wife, Carol, 
traveled to DC to be with me today. I've learned from this man 
that I have a responsibility to give back to my community and 
to my country. He taught me to get things done.
    After I finished university and worked for a few years, I, 
too, sought greater adventures. But I took a slightly different 
and colder path, heading to Alaska in 1977. I lived in 
Fairbanks, went north of the Arctic Circle to Kotzebue, and 
eventually made Anchorage my home.
    I had the extraordinary privilege of representing west 
Anchorage in the State House and the State senate for 17 years. 
I resigned my senate seat and came to DC to work on President 
Bush's team in 2001, and I do currently serve as the Secretary 
of the Interior's senior advisor for Alaska affairs. I oversee 
offices in DC and in Alaska.
    The National Energy Plan called for the Federal Government 
to expedite the construction of a pipeline to deliver natural 
gas to the lower 48 States. Congress recognized the importance 
of Alaskan natural gas resources by enacting the Alaskan 
Natural Gas Pipeline Act in 2004. The objective of the act is 
to facilitate the timely development of an Alaska pipeline. A 
key provision of the act creates the Office of the Federal 
Coordinator. If confirmed, I will be responsible for 
coordinating the expeditious actions of all Federal agencies 
with respect to licensing and construction of the pipeline.
    The value of the vast resources that the U.S. Geological 
Survey estimates are onshore in the National Petroleum Reserve-
Alaska and offshore in the Beaufort and Chukchi Seas can only 
be maximized if a natural-gas pipeline is built. Those 
resources belong to all Americans, not just Alaskans. It's 
important to note that this project will have far greater 
impacts than the initial 35-trillion-cubic-feet pipeline. It 
will allow an estimated 200 trillion cubic feet of technically-
recoverable, undiscovered gas to come to U.S. markets for 
generations to come.
    During my 22 years of public service, I have learned how to 
make positive impacts in both the legislative and the executive 
arenas. It is an honor to sit before you today as President 
Bush's nominee to be the Federal coordinator. If confirmed, I 
pledge that I will carry out my coordination responsibilities 
with dedication and integrity to expeditiously bring Alaska gas 
to the lower 48.
    Thank you, Mr. Chairman and members of the committee, for 
your consideration of the President's nomination. I ask for 
your consent, and I would be pleased to answer any questions.
    Thank you.
    The Chairman. Thank you very much. We'll have some 
questions of you shortly.
    Mr. Correll.

 TESTIMONY OF JOHN RAY CORRELL, NOMINEE TO BE DIRECTOR, OFFICE 
 OF SURFACE MINING RECLAMATION AND ENFORCEMENT, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Correll. Thank you, Mr. Chairman.
    Distinguished members of the committee, it's a great honor 
for me to be invited here today to testify before you. I'm very 
grateful for the confidence and trust placed in me by President 
Bush by nominating me as the director of the Office of Surface 
Mining Enforcement and Reclamation. I also thank Secretary 
Kempthorne for his support. And, if confirmed, I look forward 
to his leadership and guidance.
    Coal has played a pivotal role in the history of our great 
Nation, and will continue to do so into the foreseeable future. 
Clean coal technology is an essential part of the Energy Policy 
Act of 2005, as envisioned by this committee, as well as the 
administration's Advanced Energy Initiative. It's also urgently 
and desperately needed to meet the energy requirements for the 
future.
    I am humbled and enthusiastic at the prospect of leading a 
regulatory agency whose mission includes oversight for the 
environmentally sound production of coal at a time in our 
history when the need for energy independence has never been 
more acute. I assure you that I don't underestimate the 
complexity and the significance of this responsibility as I 
respectfully ask for confirmation of the President's 
nomination.
    I'm proud that Nancy, my high-school sweetheart and wife of 
37 years, is with me today. She's been my greatest source of 
encouragement, my best friend, my most astute counsel for all 
these years. I want to publicly acknowledge her for being my 
life partner, my greatest supporter, and for giving me two 
wonderful sons, Jason and Tony. They, along with my daughter-
in-law, Tina, and our grandsons, Alex and Max, could not be 
here today, nor could my father and stepmother, but I do know, 
and I want you to know, I have their unwavering support and 
confidence, and we all await your deliberations with 
anticipation and interest.
    First, some personal background. I'm from Linton, a small 
coal-mining town in southern Indiana, where my parents, Ray and 
Maxine, owned and operated successfully a retail business for 
many years. I grew up in a home and with a way of life that 
taught and reinforced the values of faith, honor, patriotism, 
respect, and service. It was a good life, with swimming, 
fishing, hunting, and camping at our doorstep.
    During my childhood, I developed a lifelong passion, 
appreciation, and respect for the great outdoors and the 
splendor and personal value of our wonderful natural resources.
    Since the 1800's, my hometown of Linton has been the center 
of coal mining in Indiana. It was during my childhood that I 
first saw--saw firsthand the legacy of previous generations of 
coal mining. Everywhere, we saw damage that was a century's 
worth of surface and underground mining: creeks contaminated 
with acid water, abandoned mining structures, unreclaimed land 
with shale, slurry, coal refuse, and many open mine portals. 
This was not only an environmental calamity, but it was a 
public health and safety disaster poised to strike.
    These memories of this devastation have stayed with me, in 
my adult life. But today, that very countryside is a living 
testament to the effectiveness of the Surface Mining Control 
and Reclamation Act of 1977, or SMCRA. My beautiful hometown 
community now carries very few scars from those early mining 
years, and the current mining operations are run to keep it 
that way.
    Early in my career in coal mining, I worked closely with 
the Office of Surface Mining, OSM, their staff and their 
inspectors, to implement the then-new SMCRA at the mines, which 
gave me a fundamental, as well as a practical, understanding of 
OSM's mission, vision, and importance.
    Although I left the coal industry sector in 1991, I have 
spent more than 30 years in the mining industry, mainly in 
surface mining in the Midwest, the Southwest, including tribal 
lands; Appalachia; and the Upper Midwest. Throughout my mining 
career, I've worked closely and collaboratively with State and 
Federal agencies, mining companies, and others to ensure that 
mining operations I was involved with were safe and healthy 
operations that equally valued the safety and health of their 
workers, as well as the conservation and protection of 
resources, and the security and well-being of those impacted by 
those operations.
    More recently, I've been on the regulatory side of the 
business equation, responsible for Federal oversight of the 
mining industry to ensure compliance with Federal safety and 
health rules and regulations. That valuable experience gave me 
a firm understanding of the responsibilities and the duties of 
a regulatory agency, and the absolute necessity for fair, firm, 
and consistent enforcement of all rules and regulations.
    Mr. Chairman, during my career, my philosophy on certain 
aspects of mining has become resolute. Mining is crucial to 
commerce and our economy, as well as our national defense. A 
balance can, and must, be maintained between conservation 
protection and production. Care of the environment and 
efficient production of energy are not mutually exclusive 
goals. I hold these values firmly as a fundamental part of my 
personal philosophy. I truly believe in them, and I work 
actively to carry them out.
    The primary objectives of OSM seem very clear to me: to 
ensure that coal mines are operated in a manner that protects 
citizens and the environment during mining, to assure that the 
land is restored to beneficial use following mining, and to 
mitigate the effects of past mining by aggressively pursuing 
reclamation of abandoned mines.
    Mr. Chairman, members of the committee, I pledge to 
aggressively pursue these objectives and advance the remarkable 
progress already achieved in abandoned mine reclamation and to 
ensure strict adherence to the laws and regulations designed to 
protect the public and our natural resources from active and 
future mining.
    I further pledge to implement and strengthen technical and 
educational programs that address OSM laws and regulations, and 
to encourage a cooperative and productive dialog between OSM, 
the States, the tribes, the regulating communities, 
stakeholders, and other agencies, as well as the public. I will 
work diligently to build bipartisan support to achieve our 
mutual goals. Together, we can forge a mining legacy for future 
generations of Americans that contributes positive to their 
quality of life.
    This concludes my testimony. I thank you for your 
consideration of this nomination. I look forward to hearing 
your perspectives and also your views on the challenges. And 
I'll be pleased to answer any questions, sir.
    Thank you.
    [The prepared statement of Mr. Correll follows:]

Prepared Statement of John Ray Correll, Nominee to be Director, Office 
             Of Surface Mining, Department of the Interior

    Mr. Chairman, Senator Bingaman, and distinguished Members of the 
Committee, it is a great honor to come before you today as you consider 
my experience and qualifications for confirmation as President Bush's 
nominee for Director--Office of Surface Mining (OSM). I am grateful for 
the confidence and trust the President has shown in me by this 
nomination and for giving me the opportunity to serve. I also thank 
Secretary Kempthorne for his support of this nomination, and if 
confirmed, I look forward to his leadership and guidance.
    Coal, an abundant and economical energy source, has played a key 
role in the history of our great nation, and will continue to do so 
into the foreseeable future. As you know, clean coal technology plays a 
pivotal role in the Energy Policy Act of 2005 as envisioned by this 
Committee, as well as the Administration's Advanced Energy Initiative. 
I am humbled yet enthusiastic with the prospect of leading a regulatory 
agency whose mission includes oversight for the ecological production 
of coal at a time in our nation's history when the necessity for energy 
independence from foreign sources has never been more widely 
recognized.
    We can ensure the conservation and restoration of our beautiful 
country and a secure energy source by providing the necessary 
leadership and strategic thinking to create and surpass new milestones 
of excellence, while building on past accomplishments of OSM. I don't 
underestimate the complexity and significance of these beliefs, and I 
respectfully ask for your confirmation of the President's nomination.
    I am proud that Nancy, my high school sweetheart and wife of 37 
years, is with me today. After all these years of being at my side, she 
continues to be my greatest source of encouragement, my best friend, 
and most astute counsel. I want to publicly acknowledge Nancy not just 
for permitting me to pursue my dreams and career ambitions but also for 
being my life partner and giving me the greatest family a person could 
ever have. Our sons Jason and Tony, daughter-in-law Tina and grandsons 
Alex and Max couldn't be here today to share in this honor, nor could 
my father and step Mother. But I can assure you that I have their 
support and confidence in asking for your confirmation of my 
nomination, and all are devotedly awaiting your deliberation.
    By way of personal background, I grew up in Linton, a small coal-
mining town in Southern Indiana, where my parents, Ray and Maxine 
Correll owned and successfully operated a retail business. Life in 
Linton, then and now, basically revolved around family, church, school 
and outdoor recreation. Values such as faith, honor, patriotism and 
respect were taught early on and reinforced as a way of life.
    Some interesting highlights of my little home town's history 
include the birth place of band leader and actor Phil Harris; the home 
of a 7-day Freedom Festival which includes the second largest July 4th 
parade in the great state of Indiana; and the stone monument which was 
originally made from coal and placed in the city park designating the 
town as the official center of the U.S. population in 1930.
    My home town has been at the center of coal mining in Indiana 
dating back to the late 1800s. Coal mining in 1870 turned Linton into a 
boomtown. Later, between 1900 and 1906, the population of Linton 
swelled from 3,000 to over 12,000 with the advent of several new coal 
mine openings.
    Our community was surrounded by many lakes and streams, woods and 
meadows. Outdoor recreation was abundantly available, with swimming, 
fishing, hunting and camping at our doorstep. And my family enjoyed 
these natural resources at every opportunity. Consequently, during my 
childhood I developed a lifelong passion and appreciation for the great 
outdoors and the splendor of our natural resources.
    It was also during my childhood that I witnessed first-hand a 
legacy of coal mining from previous generations. Evidence of surface 
and underground coal mining conducted during the late 19th and early 
20th century could be found throughout the area. Orange-colored acidic 
water contaminated many creeks, rivers and lakes. Acres of shale-
covered ground, surrounded by unleveled spoil banks resulted in many 
areas that could not support any kind of vegetation or plant growth.
    Old abandoned coal refuse piles and coal slurry lay atop ground 
that once was prime farm land or woods. Hazardous, open, unrestricted 
mine portals beckoned people of all ages into old mines. And decaying, 
abandoned mining facilities and structures were scattered about 
inviting trespass . . . and grave danger. This coal mining legacy left 
an indelible image in my memory that I have carried throughout my adult 
life.
    Today, my home town community serves as a testament to the 
effectiveness and necessity of the Surface Mining Control and 
Reclamation Act of 1977 (SMCRA) which bears little or no reflection of 
those early mining years, with current mining addressing environmental 
conservation and protection throughout the mining process.
    In 1975, like several relatives before me, I began a career in 
mining . . . this was two years before the implementation of SMCRA. 
With the enactment of this Act came a new era in coal mining, with a 
much-needed focus on the legacy of mining with equal emphasis on 
regulating active mining to protect the environment and society to 
eliminate what I had witnessed growing up.
    My professional career now spans 30 years in the mining industry 
(nearly equally divided between the coal and metal/nonmetal sectors), 
with significant experience in the Midwest, Southwest (including Navajo 
and Hopi Tribal lands), Appalachia and the Upper Midwest, the majority 
of which involving surface mining.
    During my early career in coal mining, I worked closely with the 
Office of Surface Mining (OSM) inspectors and staff to implement the 
newly enacted SMCRA, and I gained a fundamental understanding of OSM's 
mission, vision and importance. Throughout my mining career I have 
worked collaboratively and directly with state and federal agencies, 
mining companies, and other stakeholders to ensure safe and healthy 
mine production with equal value placed on conservation and protection 
of all resources, and the safety and well-being of all people 
potentially impacted.
    And more recently I have been on the regulator's side of the 
business equation, responsible for Federal oversight of the mining 
industry to ensure compliance with Federal safety and health rules and 
regulations. This experience has given me a proper understanding of the 
responsibility and duty of a regulatory agency and criticality of firm, 
fair and consistent enforcement of all applicable rules and 
regulations.
    Mr. Chairman, over the course of my career my philosophy on certain 
aspects of mining has become fixed. Mining is vital to commerce and our 
national economy, as well as our national defense. A balance can and 
must be maintained between conservation and protection, and production. 
Environmental requirements are not mutually exclusive to the efficient 
production of energy. I hold these beliefs as values, meaning resolute 
as opposed to priorities which often change.
    I know that firm and fair enforcement, combined with the right kind 
of compliance and technology assistance, as well as education and 
training will result in accomplishing this balance, regardless of the 
mining methods employed. And I know that partnerships and cooperative 
alliances based on trust and mutual goals are needed to mobilize the 
commitment we all share for compliance to the laws and regulations 
administered by the OSM, and to advance mining with appropriate 
protection and conservation of our natural resources.
    The primary objectives of the OSM include: ensuring that coal mines 
are operated in a manner that protects citizens and the environment 
during mining; assuring that the land is restored to beneficial use 
following mining; and mitigating the effects of past mining by 
aggressively pursuing reclamation of abandoned mines.
    Mr. Chairman, and members of this Committee, I pledge to 
aggressively pursue these objectives and advance the remarkable 
progress already achieved in abandoned mine reclamation, and ensuring 
strict adherence to the laws and regulations designed to protect the 
public and our natural resources from active and future mining. I 
further pledge to implement and strengthen technical and educational 
programs that address OSM laws and regulations and to encourage a 
cooperative and productive dialogue between the OSM, the States, the 
tribes, the regulated community, the stakeholders, other agencies and 
the public.
    Furthermore, I will work diligently to build bipartisan support to 
achieve our mutual goals of producing essential energy without 
sacrificing our environment, and without putting the public at risk. 
Together, we can forge a mining legacy for future generations of 
Americans that contributes positively to their quality of life.
    Thank you for your consideration of my nomination, and also for the 
opportunity to provide my views which should be a basis upon which to 
measure my future performance if I am confirmed. I respectfully request 
your support in this important and essential confirmation process. I 
also look forward to hearing your comments and perspectives regarding 
the issues and challenges facing OSM. I will be pleased to respond to 
any questions you might have to the best of my ability.

    The Chairman. Thank you very much, sir. Very good 
statement.
    Mr. Correll. Thank you.
    The Chairman. Dr. Myers, you're next. Your statement will 
be made a part of the record. Please summarize it, and we'll 
proceed.

TESTIMONY OF MARK D. MYERS, NOMINEE TO BE DIRECTOR OF THE U.S. 
         GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR

    Mr. Myers. Thank you. Mr. Chairman, Senator Bingaman, and 
members of the committee, I am honored and humbled to appear 
before you as the President's nominee for director of the U.S. 
Geological Survey. I greatly appreciate the confidence placed 
in me by the President and by Secretary Kempthorne. If 
confirmed, I look forward to the challenge and responsibility 
of managing one of the premier scientific research 
organizations in the world.
    I wouldn't be here except for the support my family, many 
of which are present in the audience today.
    I grew up in western Wisconsin on the sandstone bluffs 
overlooking the Mississippi River, where I learned to love the 
environment around me, especially the area's geology, natural 
processes of the Mississippi River, and the area's spectacular 
ecosystem. These early experiences led me--led to my career as 
a geologist. I hold B.S. and M.S. degrees from the University 
of Wisconsin-Madison, and a Ph.D. from the University of 
Alaska-Fairbanks, with a specialization in clastic 
sedimentology.
    If confirmed, I will bring more than 25 years of 
professional experience to the position. I have significant--
spent significant time in both the private and the public 
sectors, and function well in both environments.
    In the private sector, I worked as a petroleum geologist on 
both exploration and development, primarily in Alaska. For the 
State of Alaska, I worked as a petroleum geologist, the 
director of the Division of Oil and Gas, and the State 
geologist and director of the Geological and Geophysical 
Surveys. Additionally, I spent 26 years in the Air Force 
Reserve, retiring as a lieutenant colonel in 2003.
    As State geologist, I was responsible for general 
geological mapping, geohazards, energy and mineral assessments, 
research, and engineering geology. As director of Oil and Gas, 
I was responsible for managing the State's largest source of 
general funds: the oil and gas revenues from our State-owned 
lands. The division would provide up to $2 billion a year of 
direct revenue to the State. As part of that job, I was 
responsible for balancing the State's need for oil and gas 
production and revenue with the need for habitat and 
environmental protection. In order to make sound management 
decisions, it was necessary to integrate the best available 
geological, geophysical engineering, economic, hydrological, 
biological and geospatial data. It was critical that this data 
be accurate, unbiased, and relevant. And the central part of 
the process was communicating with the public through outreach 
hearings and best-interest findings, similar to an 
environmental impact statement document. We worked hard at 
building public consensus on controversial issues, and I 
believe we maintained our public credibility because we 
listened and did our homework.
    Under my leadership, the Alaska State Division of Oil and 
Gas and the Geological Survey dramatically increased their 
research capabilities and use of advanced technology; in 
particular, sophisticated seismic analysis and advanced 
economic modeling. I was able to integrate the superior 
geophysical data base management, engineering, and economic 
modeling skills within our Division of Oil and Gas with the 
superior surface geological mapping and remote sensing skills 
of our State Survey. This resulted in a dramatic increase in 
the quality of the reports and publications of both 
organizations, better public policy decisions, and a 
substantial increase in public demand for the information.
    As part of that process, we built integrated teams of 
specialists within the divisions that significantly improved--
and significantly improved our partnership relationships with 
our sister research and management organizations on the State, 
local, and national levels.
    I mentioned my background experience in order to illustrate 
the importance I placed in the acquisition and use of high-
quality, unbiased scientific data to inform the public on 
policy and resource management decisions. I believe it is 
equally important that that information be effectively 
communicated to the end-users, including, but not limited to, 
resource and regulatory agencies on the Federal, State, and 
local levels, the broader scientific community, and the general 
public.
    The scientific research conducted by the USGS has, and 
will, become even more essential to our country and world as we 
deal with our ever-increasing interaction and demands on our 
natural world. The research and monitoring performed by the 
USGS supports national, State, and local efforts to mitigate 
risks from natural hazards, as well as management of our 
Nation's water, biological, mineral, and energy resources.
    Recent worldwide natural disasters and energy supply issues 
clearly illustrate and highlight the need for this research. If 
confirmed, I will be charged with providing executive 
leadership, direction, and policy oversight to a world-class 
multidisciplinary scientific organization. I look forward to 
working with the talented and dedicated professionals of the 
USGS at a time when focused impartial science has never been 
more important. I am excited about the opportunities of working 
in direct cooperation and collaboration with the scientific 
community, resource managers, regulators, and educators in 
order to maximize the effectiveness of the USGS.
    Thank you, Mr. Chairman and members of the committee, for 
your time and consideration.
    [The prepared statement of Mr. Myers follows:]

     Prepared Statement of Mark D. Myers, Nominee to be Director, 
           U.S. Geological Survey, Department of the Interior

    Mr. Chairman, Senator Bingaman, and members of the Committee, I am 
honored and humbled to appear before you as the President's nominee for 
Director of the United States Geological Survey. I greatly appreciate 
the confidence placed in me by the President and Secretary Kempthorne. 
If confirmed, I look forward to the challenge and responsibility of 
managing one of the premier scientific research organizations in the 
world.
    I grew up in western Wisconsin on the sandstone bluffs overlooking 
the Mississippi River, where I learned to love the environment around 
me, especially the area's geology, the natural processes of the 
Mississippi River, and the area's spectacular ecosystem. This led me to 
the University of Wisconsin-Madison, where I received my B.S. and M.S. 
degrees in geology and my commission in the USAF Reserve. After 
completing my M.S. degree, I went to work as a petroleum geologist for 
Atlantic Richfield (ARCO), largely because they offered me the best 
chance to be assigned to Alaska. After working for 20 months at ARCO in 
Texas and South Louisiana, I was transferred to Alaska, which has been 
my home for the last 23 years. While employed by ARCO, I had the 
opportunity to work on both exploration and development projects in 
some of the most remote parts of Alaska and offshore waters, as well as 
participate in and lead geologic field surveys. I left the company to 
complete a Ph.D. in geology at the University of Alaska-Fairbanks, 
specializing in clastic sedimentology.
    In 1990, I went to work as a petroleum geologist for the State of 
Alaska Division of Oil and Gas, where I developed an appreciation for 
working in the public sector for the people of Alaska. At the Division 
of Oil and Gas, I worked on a diverse group of projects which included 
geological research (some of which was performed jointly with the 
USGS), management of the State's petroleum resources, industry 
regulation, commercial negotiations with oil companies, and selection 
of the final State land entitlement from the Federal Government. 
Following eight years with the State, my desire to work with the latest 
cutting edge 3-D seismic technology led me back to ARCO, where I was 
fortunate to be the project geologist on several successful new oil 
discoveries in Alaska. In late 2000, I was asked to return to State 
employ as the Director of the Division of Oil and Gas. I served in that 
position from January 2001 until I resigned in November 2005. During my 
tenure with the State, I was given additional responsibilities of State 
Geologist and Director of the Division of Geological and Geophysical 
Surveys. I chose to take a significant reduction in salary to return to 
State service, because I believed I could make a positive difference 
for the people of Alaska. That same desire to make a positive 
difference for the American public brings me before this committee.
    During my five years of leadership, the Alaska State Division of 
Oil and Gas and the Geological Survey dramatically increased its 
research capabilities and use of advanced technology, including 
sophisticated 3-D seismic analysis and advanced economic modeling. We 
built integrated teams of specialists within the divisions and 
significantly improved the partnership relationships with our sister 
research and management organizations on the local, State and national 
levels. As the Director of Oil and Gas, I was responsible for managing 
the State's largest source of general funds, the royalty revenue from 
Alaska's oil and gas leasing program and the State royalty share of oil 
and gas production. The division would provide up to $2 billion/year of 
direct revenue to the State.
    As the Director of Oil and Gas, I was responsible for balancing the 
State's need for oil and gas production and revenue with the need for 
habitat and environmental protection. In order to make sound management 
decisions it was essential to integrate the best available geological, 
geophysical, engineering, economic, hydrological, biological and 
geospatial data. It was critical that these data were accurate, 
unbiased, and relevant.
    Because of the State's ability to perform its own scientific 
studies internally or with partners, and to fully utilize the existing 
data, we were able to develop effective strategies for dealing with 
issues proactively. An essential part of the process was communicating 
with the public through outreach, hearings, and written Best Interest 
Findings. We worked hard at building public consensus on controversial 
issues, and I believe we maintained our public credibility, because we 
listened and did our homework.
    As State Geologist, I was responsible for other areas, including 
general geological mapping, geohazards, mineral assessment and 
research, and engineering geology. As the Director of both the 
Geological and Geophysical Survey and the Division of Oil and Gas, I 
was able to integrate the superior geophysical, database management, 
engineering and economic modeling skills of the Division of Oil and Gas 
with the superior surface geological mapping and remote sensing skills 
of the State Survey. This resulted in a dramatic increase in the 
quality of the reports and publications of both organizations, better 
public policy decisions, and a substantial increase in public demand 
for the information.
    I mention my background and experiences in order to illustrate the 
importance I place on the acquisition and use of high quality, 
unbiased, scientific data to inform the public on policy and resource 
management decisions. I believe that it is equally important that the 
information is effectively communicated to the end users, including, 
but not limited to, resource and regulatory agencies on the Federal, 
State and local levels, the broader scientific community, and the 
general public.
    The scientific research conducted by the USGS has been and will 
become even more essential to our country and the world as we deal with 
our ever increasing interaction with and demands on the natural world. 
The research and monitoring performed by the USGS supports national, 
state and local efforts to mitigate risk from natural hazards as well 
as management of our nation's water, biological, mineral and energy 
resources. Recent worldwide natural disasters and energy supply issues 
have highlighted the need for this research.
    If confirmed, I will be charged with providing executive 
leadership, direction and policy oversight to a world class 
multidisciplinary, scientific organization. I look forward to working 
with the talented and dedicated professionals of the USGS at a time 
when the need for focused, impartial science is so important. I am 
excited about the opportunities to work in direct cooperation and 
collaboration with the scientific community, resource managers, 
regulators, and educators in order to maximize the effectiveness of the 
USGS.
    Thank you Mr. Chairman and members of the committee for your time 
and consideration.

    The Chairman. Thank you very much.
    I note, Mr. Correll, that I think you're the only one that 
didn't get to introduce your wife. Is that correct? Did she get 
introduced?
    Mr. Correll. This is my wife with me here. Nancy.
    The Chairman. Would you stand up? Thank you. Nice to see 
you, ma'am. Thank you for coming.
    Mr. Correll. Thank you, Senator.
    The Chairman. Now we're going to start with the questions, 
and we're going to go over and ask if you'd like to start, 
please, Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman.
    First of all, I'd like my opening statement to go in to the 
record.
    The Chairman. That'll be done.
    Senator Bunning. Thank you.
    [The prepared statement of Senator Bunning follows:]
   Prepared Statement of Hon. Jim Bunning, U.S. Senator From Kentucky
    Thank you Mr. Chairman.
    The Office of Surface Mining supports the states' surface mining 
programs and administers the Abandoned Mine Land program. As one of the 
largest historic and current coal producers, my state of Kentucky 
considers the AML program very important. We have a large state-share 
balance that is owed to us by the federal government. And we have 
significant high priority reclamation sites that need to be addressed 
immediately.
    Most coal states, like Kentucky, have primacy when it comes to 
surface mining, and OSM will only serve in a limited oversight role to 
make sure the states are doing their job. I believe it is important 
that the Director of the Office of Surface Mining realize that he will 
be the C.F.O. of the AML program.
    As my colleagues are aware, proposals to change the AML program 
have been under consideration for the last several years. I am 
concerned that the funding that is required to reclaim dangerous 
abandoned coal mines has been increasingly diverted to other purposes. 
No matter what legislation passes congress, I will look to the Director 
of the O.S.M. to come to Congress and give honest assessments of the 
program. It will be his job to ensure that the A.M.L. program is 
solvent, that states receive the money owed to them, and that we have 
the long-term ability to reclaim abandoned mine land.
    I look forward to talking with the nominee to be Director of the 
U.S. Geological Survey. I am very familiar with the U.S.G.S. and the 
outstanding mapping they have done in Kentucky. I also look forward to 
discussing the new position of Federal Coordinator of Alaska Natural 
Gas. In these times of high energy prices, it is important that we have 
a steady hand to ensure that Alaska natural gas gets into the market as 
quickly as possible.
    Thank you Mr. Chairman.

    Senator Bunning. Mr. Correll, today we have seen the 
Abandoned Mine Land Program resources stretched to its limits 
because money is diverted to other areas. With this budgetary 
reality, what will you be able to do to ensure that abandoned 
mine lands are reclaimed? Will you come to Congress and provide 
realistic comments on the AML program, if confirmed?
    Mr. Correll. Thank you, Senator Bunning. I'm familiar with 
AML funds, of course, and I need further study before I'd give 
you any absolute answers on that. I will give you my 
commitment, freely, to work with you and your staff and other 
members of the committee, if confirmed, looking at the AML 
fund, looking for the long-term solutions.
    Senator Bunning. Are you familiar with the diversion of 
funds presently from the AML fund to other entities right now?
    Mr. Correll. Yes, sir, I've seen how the fund is 
appropriated currently. Yes, sir.
    Senator Bunning. In other words, it's being used for 
healthcare benefits, it's being used for retirement benefits of 
orphaned miners, and the current coal companies are being 
forced to pay those benefits when the mine--in other words, in 
Kentucky, if I have a coal company that operates in Kentucky, 
that money is not being returned to Kentucky to reclaim the 
abandoned mine land, but it's being diverted to other purposes. 
I want to make sure that Kentucky gets back the money that 
they've been paying to reclaim--we have an awful lot of 
abandoned mines in Kentucky, and we want to make sure that they 
get reclaimed. I need a commitment from you to make sure that 
that is done.
    Mr. Correll. Senator, again, if confirmed, I would look 
forward to, and would immediately seek out, your advice and 
your thoughts and concerns, as well as other members of the 
committee, on the AML fund, as well as other aspects of OSM. I 
can also say that it is, if confirmed as director, my mandate 
and duty as the--primarily, the SMCRA, in carrying out the 
mandates that Congress prescribed under SMCRA.
    Senator Bunning. As you know, States like Kentucky have 
primacy in surface mining issues. Primacy. In other words, they 
have first control over their mines. Will you defer to the 
States and ensure OSM keeps only a limited oversight role?
    Mr. Correll. Senator Bunning, ``primacy,'' to me, means 
primacy, and those States that have reached out for primacy and 
have been--have achieved primacy would, in fact, have primacy. 
OSM's role is oversight to ensure that they're doing the things 
that they've said they would do and that SMCRA requires. So, I 
would recognize primacy, sir, as it's intended to be, Senator.
    Senator Bunning. Mr. Myers, the USGS has worked very well 
in my State with mapping projects, particularly working with 
our State geologists to make detailed maps available on the 
Internet to the public. I understand that Kentucky is more 
advanced than most States when it comes to mapping. What are 
the national needs in this area?
    Mr. Myers. Thank you, Senator Bunning, for that important 
question.
    One of the core missions of the USGS is clearly basic 
geological mapping and gathering information. And I'm aware of 
the high quality of the work that comes out of the Kentucky 
Survey. One of the State--one of the important programs of the 
USGS has been the Cooperative Mapping Program with the States. 
It's a competitive program in which the State gets grants 
through the USGS from the Federal Government, and I think that 
program has been a big success. Furthermore, the USGS is 
dedicated to a lot of traditional mapping as one of its core 
missions.
    Senator Bunning. How far behind are most States in the 
updating of their mapping?
    Mr. Myers. Senator Bunning, it runs the gauntlet. 
Particularly the issue of getting maps from paper maps in to 
the digital world and to a new geospatial infrastructure really 
highly varies by State. And I'm not fully aware of all the 
States' issues, but I certainly know that there is a wide 
variety in the quality and scale of not only geological maps 
themselves, but also the amount of maps that are actually done 
digitally today. And, Senator, if confirmed, I'd be happy to 
look more into that program.
    And I will say one other thing. I consider cooperative 
programs with the States essential to the well-being of the 
USGS and to the State Surveys, as well, and look forward, if 
confirmed, to working with the State Surveys on geological 
mapping.
    Senator Bunning. My time has expired, but I wanted to ask 
Mrs. Pearce--but I'll wait for my second round.
    The Chairman. No, you can proceed.
    Senator Bunning. Can I proceed? Thank you.
    With high energy prices, we can all see how important it is 
to connect the vast supply of natural gas in Alaska to the rest 
of our country. Will you be tasked with ensuring this 
connection is made as quickly as possible? And do you foresee 
any immediate hurdles to this goal?
    Ms. Pearce. Senator, thank you. Thank you for that 
question, Senator.
    It will be my responsibility, if I am confirmed, when an 
application comes to the Federal Energy Regulatory Commission, 
to ensure that all 14 Federal agencies that will have a role in 
the permitting and the licensing and in the construction will 
work together to expeditiously move forward. The hurdles at the 
Federal level will be few and far between. I will make sure of 
that.
    Senator Bunning. What about in the great State of Alaska?
    Ms. Pearce. Thank you, Senator.
    At present, as you most likely know, the Governor has the 
legislature called into special session, and they have before 
them both a rewrite of the oil tax policies, along with a 
contract under the Stranded Gas Act, with the producers that 
would lead to an application coming before us. I believe that 
the legislature will do the right thing.
    Senator Bunning. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Let me just follow up. Ma'am, there still isn't any accord 
between the State and--well, between the State and the 
companies, right?
    Ms. Pearce. Senator, there is accord. There is a contract 
agreed to between Governor Murkowski and the three producer 
companies. That contract, the basic pieces of it, will be 
before the legislature--if not during this special session, 
then later this fall, during another special session. So, there 
is accord between the producers and the Governor.
    The Chairman. Well, the holdup is that the legislature 
won't ratify it or--what's the holdup?
    Ms. Pearce. The legislature has not yet ratified it. They 
did not come to an agreement on the oil tax changes during 
either the regular session or the first special session, so 
they are back in Juneau. I always hazard to say what any 
legislature might do, but they do appear to have critical mass 
to move forward on an oil tax change, so I do believe that they 
will take action.
    The Chairman. You do believe that will happen?
    Ms. Pearce. Yes, sir.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you all for being here, and for being 
willing to undertake these jobs. I know they're difficult, 
certainly in the area of energy, where many of our challenges 
are now. And, just for information on what you just mentioned, 
this pipeline is a Federal pipeline, is that right?
    Ms. Pearce. It'll be federally licensed and permitted. It 
will be privately owned. This is by--depending upon the project 
that comes before us, it'll be privately owned. But, when 
Congress passed the Act, you provided for a loan guarantee, 
sir.
    Senator Thomas. Right. So, what's the State's role in 
making this judgment?
    Ms. Pearce. Well, the gas is on State leases.
    Senator Thomas. Pardon me?
    Ms. Pearce. The present gas that is known in Alaska, that 
35 tcf of gas, they're on--it's on State leases, so it's State 
gas. And more than--about half of the right-of-way in the State 
of Alaska crosses State lands. The other half is Federal lands. 
So, we will coordinate with the State.
    Senator Thomas. I would imagine they're interested in 
selling the gas, aren't they?
    Ms. Pearce. They are interested in selling their gas, that 
is true, their royalty gas.
    Senator Thomas. OK. Just generally, and I appreciate what 
you've said, and so on, what would you say, in just a short 
statement, would be the principal challenges to the job you're 
undertaking?
    Ms. Pearce. Senator, if I'm confirmed, I think that the 
principal challenge will be working to ensure that all the 
Federal agencies that are involved in this huge project stay on 
schedule in getting their permits and licenses through. We have 
a deadline--18 months for an EIS. That environmental impact 
statement has to also be used for the right-of-way grant and 
for other permits. So, the agencies are going to have to work 
closely together. It will be my responsibility, if I'm 
confirmed, to mediate any skirmishes between the agencies, but 
primarily to ensure that they stay on track with the schedule 
in coordination with the State of Alaska.
    Senator Thomas. OK. Thank you.
    Dr. Myers, what--how would you, sort of, summarize your 
responsibility and challenges? What do you think are the 
principal challenges of the Geological Survey?
    Mr. Myers. Thank you, Senator Thomas, for that question.
    First of all, I have the highest respect for the agency. 
The high-quality caliber of the scientific personnel is 
outstanding. The Survey has a wide and diverse, broad mandate, 
in terms of developing and studying science, and providing 
science that's valuable. I think one of the key challenges will 
be to make sure the science is focused and ready and available 
where we need it, when we need it. So, that takes an 
anticipation of what world issues are going to be the big 
challenges for us.
    I think one of the other big challenges--and I think the 
Survey has done this admirably, but it will be incredibly 
important--is that the science is unbiased, that it's peer 
reviewed, and that it's objective, so that it comes with no 
agenda other than helping to provide the framework for dealing 
with the major policy issues we face in this country.
    And so, it's a very large agency, again, focusing the 
multidisciplinary science together to work is going to be, I 
think, the largest challenge, to make sure that we're 
effectively delivering the products the Nation needs, and that 
we're accountable to our funding sources, to the Congress, and 
to the administration, as well.
    Senator Thomas. Good. Thank you. It seems like, in handling 
the development of energy resources and so on, that there's a 
number of agencies involved. Now, I know that you're not a 
regulatory agency, I guess, especially, are you?
    Mr. Myers. Senator Thomas, in particular, we're not. And 
that's the way it needs to be so that the Survey can deliver 
objective information that's independent of the regulatory or 
commercial interests of any party----
    Senator Thomas. Yes.
    Dr. Myers [continuing]. So it is absolutely clean and 
objective, and it can be used for policymaking. Conversely, it 
can--also is available to the general public.
    Senator Thomas. Right. One of the problems is, when there 
are several agencies involved, you have--one agency makes its 
regulations, and then the next one makes its findings, and so 
on; and so, it takes a very long time to get them all done. I 
hope we can have coordination among the agencies that share 
some of the responsibilities.
    Mr. Correll, what--I think the Senator took away my 
question about the funding. The Abandoned Mine Lands Fund, 
there's a fee, and it's my understanding that, at least 
originally, the idea was, that fee was used to deal with 
abandoned mine lands. And the fact is that not all of it does 
that at all. It's going into other uses. And the States are not 
getting their money that--all the money that's collected. What 
do you think of that?
    Mr. Correll. I see the--Senator Thomas, I see the AML as 
perhaps my greatest challenge, if confirmed, with OSM bringing 
some long-term solution rather than reauthorization; short-
term, building some consensus through outreach as to what the 
fund is, and what it should be for, and how it should be used 
and funded. Without giving any specific opinion as to how I 
would do that or what it should look like when it's done, I 
would simply say I will work very closely with you, the 
committee, the coal-producing States, those impacted by ALM and 
the funding, to achieve a long-term solution that's fair and 
equitable and still allows OSM to reach the mandate that SMCRA 
puts on the OSM, on the agency.
    Senator Thomas. Yes. Well, we all--as we have more and more 
economic energy development, why, we want to make sure we 
balance it with the environment, and that was one of the 
purposes of this, to go ahead and reclaim those areas. And it 
seems to me that diverting the money away to other purposes is 
a--moves away from the purpose of this whole proposition, and 
it's become a political issue, it seems. So, welcome to the 
political arena.
    [Laughter.]
    Senator Thomas. Thank you, Mr. Chairman.
    The Chairman. Well, I'm sorry I skipped over you a little 
while ago. I apologize.
    Senator Thomas. Not at all.
    The Chairman. You have to--I have to be a little careful to 
show no preference to the big righthander, Senator Bunning, any 
longer.
    [Laughter.]
    The Chairman. Well, witnesses, it's been terrific having 
you. And we could take a lot of time just talking, here, about 
your jobs, because they're big jobs.
    For instance, Drue Pearce, I can tell you how thrilled and 
happy we were, as we proceeded with the Energy Act in August of 
last year, and got it passed, and had it signed by the 
President. And, in my case, it was a particular thrill, because 
we hadn't had one in 15 years. And we did it bipartisan. And we 
brought the President of the United States to sign it, out in 
our State of New Mexico. And one of the provisions that didn't 
miss our attention, albeit far, far away from New Mexico, was 
the provision that said one of the these days we're going to 
get a lot of natural gas from up there in Alaska. And we 
weren't talking about ANWR, which we're still fussing with 
trying to get something done, and hope we will, we're talking 
about that giant project to bring natural gas right into the 
heartland of the country, which you're the supervisor of, 
henceforth, right?
    Ms. Pearce. Yes, sir.
    The Chairman. In about 2 weeks, when you get yourself sworn 
in, you've got this $20-billion contract. That's what it is, 
about?
    Ms. Pearce. Yes, sir.
    The Chairman. Twenty-plus.
    Ms. Pearce. Yes, Senator.
    The Chairman. Not too many of them bigger than that, are 
there?
    Ms. Pearce. No, sir, it would be the largest privately 
financed construction project ever in the world.
    The Chairman. Yes, well, it's privately financed in the one 
sense, but it's publicly enhanced----
    Ms. Pearce. A loan guarantee, sir.
    The Chairman [continuing]. Because we guarantee it. And 
that's why you're involved. Now, we don't want to go into 
detailed questions today, but I can tell you right now that, as 
one who worked very hard to get that done, I am not very 
thrilled with what's going on up there. And you can sit there 
and tell me, with your nice placid face, that this is all going 
along and the legislature is going to vote and approve things, 
but things aren't going very well. There's too much--too many 
disputes going on. And, for my cup of tea, or cup of coffee 
here, there's an awful lot of something that smells and looks 
like politics going on. I don't know whose or where, but I'm 
telling you, the American people expect us to get that done. We 
didn't put our guarantee--our public's guarantee on $20 billion 
to have further delays.
    Now, that's not any aspersion on you, ma'am, but it is 
this, it is saying to you that you just took an oath a little 
while ago, and you told us that you would testify before this 
committee, when we ask you to, on what's going on, on any 
matters over in their Department that concern us and the 
business of the public. And I'm, sort of, forewarning you that 
we're going to get you up here on this issue rather frequently.
    Ms. Pearce. OK.
    The Chairman. At least I'm reminding my staff today to, 
sort of, put it on the calendar and haul you up here, nicely--
that's a bad word--ask you up here and find out what's going 
on. OK?
    Ms. Pearce. Yes, sir, Senator, I'll be happy to.
    The Chairman. And you're going to be prepared to tell us, 
right?
    Ms. Pearce. Yes, sir, I'll be prepared, and I'll also 
deliver your message to the legislature.
    The Chairman. That'd be nice. You can deliver it to whoever 
would like to hear it up there----
    Ms. Pearce. Yes, sir.
    The Chairman [continuing]. The Governor, whoever's in 
legislature. I mean, they may not care what we think, but we 
put on a pretty whopping full-court press to get that done. 
That isn't an easy thing to get it done around here, right? 
That's one of the big ones. We did a couple of big ones. The 
pipeline, I remember----
    Ms. Pearce. TAPS.
    The Chairman [continuing]. Passed by one vote. You were 
probably alive and kicking by then. I don't remember which age 
he said you were, but you were probably----
    Ms. Pearce. Fairly old.
    [Laughter.]
    The Chairman. You were old enough to remember that?
    Ms. Pearce. Oh, yes, sir.
    The Chairman. Damn near didn't pass, right?
    Ms. Pearce. That is correct, sir. One vote.
    The Chairman. One vote.
    Ms. Pearce. The Vice President had to break the tie.
    The Chairman. Break the tie. And we thought that was the 
neatest project. We couldn't understand why the whole world 
didn't want it, right?
    Ms. Pearce. Yes, sir.
    The Chairman. Well, it's the same thing with ANWR now. But 
it wasn't the same thing with this one that you're supervising. 
We did that smooth, easy. How many votes? Seventy-six? Eighty? 
Eighty-some votes had the big old monster guarantee in it, 
right? So, you understand, we had--we're out in front of you, 
saying, ``Come on, America needs this stuff. We don't want to 
be blackmailed anymore,'' right?
    Ms. Pearce. Yes, sir. I understand.
    The Chairman. How many years do you think it is going to 
take before we get this thing?
    Ms. Pearce. If the legislature acts this fall and we have a 
contract, we'll begin the pre-application process in 2007. The 
companies tell us that they would expect gas in a pipe in 2014, 
Senator.
    The Chairman. 2014.
    Ms. Pearce. Yes, sir.
    The Chairman. My God, that's a long time, isn't it? Gee, we 
might not even use gas by then. Who knows?
    [Laughter.]
    The Chairman. You'd really better hurry up, because we're 
inventing all kind of new stuff out there, you know? With all 
this high price of crude oil, we're inventing new stuff, and we 
may not even need that gas. Boy, those companies better be wary 
about all that money they owe, right?
    Ms. Pearce. Yes, sir. Senator, if I'm confirmed, I would be 
happy to come back before the committee and explain the 
timeline.
    The Chairman. Oh, you will?
    Ms. Pearce. Yes, sir.
    The Chairman. You think you know that pretty soon you can 
have that ready?
    Ms. Pearce. Yes, sir.
    The Chairman. When do you think you can give us a timeline?
    Ms. Pearce. As soon as I'm confirmed.
    The Chairman. Oh, you can come right up here and give it to 
us?
    Ms. Pearce. Yes, sir.
    The Chairman. So, you already know it?
    Ms. Pearce. We have--the companies have given us a 
timeline. You, Congress, laid out that the EIS cannot take more 
than 18 months, so parts of the timeline were set by Congress, 
and the memorandum of understanding amongst the 14 Federal 
agencies has already led us to begin work looking at a 
schedule, so we can share a proposed timeline.
    The Chairman. You've got an office already?
    Ms. Pearce. No, sir.
    The Chairman. You don't?
    Ms. Pearce. I do not.
    The Chairman. Where are you going to headquarter?
    Ms. Pearce. We don't know yet where the office will be, 
because it's a new agency.
    The Chairman. But you will have one?
    Ms. Pearce. Yes, sir. If confirmed, then we'll work on 
getting space.
    The Chairman. Where's the money?
    Ms. Pearce. The Department of Energy has the authority for 
the position, at the moment, until the nominee is confirmed, 
and they have money set aside in their budget for the Federal 
Coordinator's Office.
    The Chairman. In other words, when I paid for it in the 
subcommittee, the Department of Energy, we paid for you, too?
    Ms. Pearce. Yes, sir.
    The Chairman. Well, I hope you have good people there. How 
many do you expect to have working for you?
    Ms. Pearce. Our core office probably won't number more than 
10 at the beginning. On a long-term basis, I can only tell you 
that when the pre-build happened for the lower 48 connections 
to Alberta back in the 1970's, the Federal inspector at that 
time had over 400 people overseeing the construction of that 
2,500 miles of pipeline.
    The Chairman. Well, we'll get around to asking you about 
that stuff, too, before long.
    Ms. Pearce. OK.
    The Chairman. We'll give you a little time. Just don't get 
carried away with too many workers.
    Ms. Pearce. Yes, sir.
    The Chairman. We hope you don't need a whole army up there, 
right? The companies have got to do their own work, right? 
You're just inspectors, so to speak.
    Ms. Pearce. That is correct.
    The Chairman. They're going to build--they're going to have 
their own inspectors and their own whatever there is that goes 
with it, because it's their project, right?
    Ms. Pearce. That is true. But all of the agencies will have 
to also inspect----
    The Chairman. Oh, yes.
    Ms. Pearce [continuing]. During the construction, in 
particular.
    The Chairman. Well, the Government will have more people up 
there. They'll fall over each other trying to figure out who's 
got more to do, right, don't you think, Senator Bunning?
    Senator Bunning. Absolutely.
    The Chairman. I've got it figured out already. Both 
righthanders are right on this one.
    [Laughter.]
    The Chairman. There's a little righthander and a big 
righthander.
    Now, let's see, Dr. Myers, you're in charge of a great 
organization, and I want to talk about two things that are on 
my mind that are new and different, and that's underground 
water aquifers that are not potable in their ordinary 
condition, but, rather, we're looking at science to change them 
from--their status into something we can drink and use. That's 
salinated water, or desalinated processes. Tell me a little bit 
about your role, as you see it, if any, in trying to help us 
figure out how to make more water available where it isn't, 
more water available for use.
    Mr. Myers. Thank you, Mr. Chairman.
    As you know, the USGS has a sizable organization to look at 
both surface water and a lot of cooperative stream-gauging 
efforts, as well as underground aquifers and understanding the 
lateral extent, the use, the recharge, and the environmental 
impacts of the current use and potential future use. The agency 
provides science to help support the policymakers on how much 
water can be withdrawn from aquifers and what the future might 
look like as population densities in different areas grow.
    I know a tremendous amount of science is going into it. 
It's a core area of research for the Survey. I am not familiar 
with the actual issues of taking nonpotable water, or saline 
waters, and converting them to potable, or drinking, water, 
Senator. I'd be happy to look into that. I'm just not aware of 
it.
    But, clearly, it's a core mission of the USGS. It's a major 
need of this country. We certainly have real issues with 
providing sustained, high-quality drinking water and water for 
irrigation. We have a lot of competing uses for our water and 
good science needs to be done so that when the policymakers 
make these tough decisions about allocating water or looking at 
future supplies, they have the data they need to help frame the 
issue. And certainly I'd be happy to--if confirmed, be happy to 
work with you, Senator, on the USGS water programs.
    The Chairman. Well, Dr. Myers, you're going to hear a lot 
more from our office about saline water. It's not necessarily a 
charge of yours, but, on the other hand, it's not necessarily 
not a mission of yours, either, to help where you can with your 
expertise. It's a big, growing problem to try to determine how 
to best utilize salinated corridors and salinated underground 
ponds, and even surface ponds, where they have no use now, but 
are not too far away from a possible use. You're clearly aware 
of that science as having breakthroughs all the time. And, 
while we're principally using osmosis, there are other modes of 
science being applied to try to find a better way--a cheaper 
way, I guess I should say. That's probably a more economic way.
    New Mexico is really hard-pressed in that area, and 
spending a lot of resources. And I've taken it upon myself to 
put a lot of money in the Department of Energy to do water 
research, and will appreciate, later on, trying to work out 
some cooperative things with your Department, as you assume 
your leadership role and make this department even better. It's 
a great department. We want you to keep it there. You know 
that. Straight professionalism, right?
    Mr. Myers. Yes, Senator. It'll have no value if we can't 
keep it that way.
    The Chairman. That's correct.
    Now, my last comments are going to go to you, Mr. Correll. 
I don't have to ask you questions of the types that have been 
asked about the fund, but I do have to lay before you my own 
observations that, based on your background, you're extremely 
well qualified for this job. I think it's unfair to not let the 
record reflect that there are some who object to your having 
this job. And you know that. I think that we all know why. And 
we're going to have to get those right out on the surface and 
find out the real, real truth behind them.
    Going up front, I think I could take a couple of hours here 
and go through your qualifications, and it would clearly show 
that--by the time I was finished, that whoever's objecting, it 
couldn't be on qualifications, so it's got to be something 
else. And so, we're going to be sure that that gets out where 
they want to get it out, and you're going to have to answer it, 
but we're going to get your confirmation moving. We're not 
going to have you languish around here because certain groups 
don't want you in this job based upon their membership in 
certain organizations of one type or another. Do you understand 
what I'm talking about?
    Mr. Correll. Yes, sir. Thank you, Mr. Chairman. If 
confirmed, I will serve with honor, and I appreciate your 
comments.
    The Chairman. And you served--you'll have to serve for 
everybody, including those groups that don't like you.
    Mr. Correll. Absolutely, sir. It's a duty----
    The Chairman. They have a membership prejudice, but that 
doesn't mean that they aren't in the industry.
    Mr. Correll. No, sir.
    The Chairman. Correct?
    Mr. Correll. Yes, sir.
    The Chairman. They're just--we're just going to have to 
make sure, up here, that that doesn't mean we leave this job 
vacant. Because you're qualified. So, you know, we're going to 
get on with that.
    If there's nothing further from the Senator, we're going to 
proceed.
    Thanks to all of you who came to wish these nominees well. 
It has not gone unnoted. And they will move--we will try to 
move them with dispatch that you, as their relatives, would 
expect us to do. Sometimes you hear about all these long 
delays, and people being held up on the floor, and blue slips 
that hold people forever. We're going to try to see that 
doesn't happen, so your particular relative can move right 
along. Including you, who get this very unsavory job, ma'am.
    [Laughter.]
    The Chairman. And see that you get it done, okay?
    Ms. Pearce. Yes, sir.
    The Chairman. You and I are going to be--get to know each 
other here in the next 18 months; you know that, right?
    Ms. Pearce. I look forward to it, Senator.
    The Chairman. You can tell, can't you?
    Ms. Pearce. Yes, sir.
    The Chairman. OK. We stand adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Drue Pearce to Questions From Senator Domenici
    Question 1. The Alaska Natural Gas Pipeline Act that created the 
position to which you have been nominated was enacted in the fall of 
2004. Here we are, nearly two years later, and we are apparently not 
much closer to getting a pipeline bill than we were when the law was 
enacted.
    In your opinion, what is the most significant issue holding up the 
commencement of the project?
    Answer. The 35 TCF of proven North Slope natural gas resources need 
to be committed to a project in order for any proponent to secure 
financing. The Alaska North Slope Producers--BP, ConocoPhillips, and 
Exxon--control 87.5% of those known resources. The producers have said 
they need four things in order to proceed with the permitting and 
construction of an Alaska gas pipeline:

        1) Federal enabling legislation, which Congress passed in 
        October, 2004;
        2) Fiscal certainty from the State of Alaska;
        3) Regulatory certainty in Canada; and
        4) A determination that the project is commercially viable.

    The Producers are proceeding sequentially in addressing these 
needs.
    The 460 page negotiated agreement between the Producers and 
Governor Murkowski contains a number of provisions that are proving 
controversial to the Legislature and to Alaskans. Among those, critics 
have attacked provisions that require a complete rewrite of the State's 
oil production tax and then a freeze of that rate for 30 years, provide 
various subsidies to the Producers, and require the State to take its 
gas in-kind rather than in-value as well as sharing the construction 
risk of the project. Critics also attack what they consider to be the 
lack of firm work commitments in the contract.
    Question 2. Do believe it is possible at this point for the State 
of Alaska to get a workable contract, one that will not hinder full 
utilization of the pipeline for all of the gas resource that is 
available?
    Answer. Last week Governor Murkowski began to negotiate a number of 
significant changes to the agreement with the Producers. He identified 
provisions that need to be rewritten after an extensive public comment 
period and public meetings in every major population center in Alaska.
    The Producers have publicly stated it will take them at least 30 
days to collectively answer the Governor. In the meantime, the 
Legislature will begin further debate on the oil tax rewrite July 24. 
It is possible that the Governor and Producers will negotiate changes 
to the agreement that will make it acceptable to a majority of Alaskans 
and to the Legislature. In addition, the Federal Energy Regulatory 
Commission (FERC) has issued appropriate Open Season regulations, which 
will promote the full utilization of Alaska's natural gas resource.
    Question 3. The Act grants you the authority to preclude federal 
agencies from insisting on permitting conditions that you find would 
prevent or significantly impair the expeditious construction and 
operation of the pipeline.
    How do you envision exercising that authority procedurally?
    Answer. If confirmed, I would expect to create a process under 
which the project applicant would have the right to appeal/petition the 
Federal Coordinator to intercede in a discretionary permitting action 
if the applicant, another agency, or another government entity, 
believes the Agency was insisting on permitting conditions that ``would 
prevent or significantly impair the expeditious construction and 
operation of the pipeline'' as the enabling legislation dictates.
    The process could then allow the Agency to respond, followed by a 
limited mediation process between the Agency and appellant with the 
Federal Coordinator as mediator. If agreement is not reached, the 
Coordinator may then exercise his or her authority to limit the 
Agency's conditions.
    Question 4. Do you anticipate that there will be some type of 
public process, or do you view this authority as more of an interagency 
review process of which you are the final arbiter?
    Answer. If confirmed, I would expect to lead a rulemaking process 
that will define the procedures used by the Office of the Federal 
Coordinator. The rulemaking process will include public comment 
periods.
    Question 5. What do you believe are the differences between this 
position and the Federal Inspector of Construction position that was 
created in the Alaska Natural Gas Transportation Act in 1964?
    Answer. The separate role of the Secretary of Energy with respect 
to the exercise of the functions and authorities of the Office of 
Federal Inspector (OFI) under the Alaska Natural Gas Transportation Act 
(ANGTA) and related legal authorities is abolished once these functions 
and authority are transferred to the Federal Coordinator pursuant to 
Section 106 of the Alaska Natural Gas Pipeline Act (ANGPA).
    The specific functions and authority of the OFI, as prescribed in 
ANGTA and related executive decisions and orders, survive after 
appointment of the Federal Coordinator, and are to be exercised 
thereafter by the Federal Coordinator consistent with the statutory 
provisions of ANGTA and its implementing resolutions, regulations, and 
orders.
    If any applicant submitted a proposal under ANGTA, the Coordinator 
has the authority to enforce terms and conditions upon the project 
applicant consistent with that Act. Under an ANGPA application, the 
Coordinator does not have that enforcement power. Under ANGTA, the 
Inspector is the lead agency for all purposes whereas, under ANGPA, the 
FERC is the lead agency for NEPA for the project.
      Responses of Drue Pearce to Questions From Senator Bingaman
    Question 1a. The Federal Energy Regulatory Commission released a 
report last week, which said that ``any further delays may serve to 
make the Alaska gas pipeline uneconomic in comparison to LNG imports,'' 
and that ``Alaska is at risk of being marginalized in the search for 
new natural gas supplies for U.S. consumption.''
    Do you agree with FERC's assessment?
    Question 1b. If confirmed, what steps will you take to advance the 
project?
    Answer. I agree with the Federal Energy Regulatory Commission's 
assessment of the situation. If confirmed, I will advocate the 
development of the Alaska gas transportation project; develop a 
memorandum of understanding with the State of Alaska as required by the 
Alaska Natural Gas Pipeline Act; and work with the Government of Canada 
to ensure timely regulatory review and cooperation.
    Question 2. What role have you played in your current job, as 
Senior Advisor to the Secretary of the Interior for Alaskan Affairs, in 
implementing the Alaska Natural Gas Pipeline Act?
    Answer. As Senior Advisor to the Secretary of Interior for Alaska, 
my primary responsibility is to advise the Secretary of the Interior on 
the status of the project and to act as his designee as a participant 
in interagency discussions and in drafting the Federal Interagency 
Memorandum of Understanding, which was recently signed by all 
participating Departments and Agencies.
    Question 3a. The Alaska Natural Gas Pipeline Act requires the 
Secretary of the Interior to ``conduct a study of alternative 
approaches to the construction and operation'' of the pipeline, 
including the possibility of having a government corporation build it.
    Where does that study stand?
    Question 3b. When might we expect to see the report called for by 
the Act?
    Answer. Under the Alaska Natural Gas Pipeline Act, the Department 
of Energy (DOE) is responsible for producing the Alternative Means of 
Construction Study. It is my understanding that DOE has begun scoping 
work on the study, but a deadline for completion of the study has not 
been set. As provided in the statute, this study will remain the 
responsibility of the Department of Energy even after a Federal 
Coordinator has been appointed.
    If confirmed, I will work with DOE to assess the current status of 
the report and will provide you and the Committee with an update.
                                 ______
                                 
    Responses of John Ray Correll to Questions From Senator Domenici
    Question 1. Mr. Correll, your entire professional career has been 
in mining as you noted in your statement. Nearly all of that time has 
been spent in positions both in industry and in government in the area 
of mine health and safety. However, you note in your testimony that you 
have worked on issues with the Office of Surface Mining and are 
familiar with the Surface Mining Reclamation and Control Act.
    Could you please go into a little more detail about your direct 
experience in matters related to OSM?
    Answer. At the time of enactment of the Surface Mining Control and 
Reclamation Act of 1977 (SMCRA), I was employed at various surface 
mines in Indiana. I worked directly with Office of Surface Mining 
inspectors and staff to implement the new regulations. This included 
providing education and training for mine employees regarding the new 
requirements, as well as accompanying and assisting OSM inspectors 
while at the mine site.
    Between 1980 and 1991, I provided SMCRA compliance guidance and 
technical assistance to operational and professional staff at surface 
mines managed by my employer.
    I also provided senior leadership in coordinating several joint 
projects between MSHA and OSM during my employment at MSHA. There are a 
number of areas where OSM, State SMCRA regulatory authorities, and MSHA 
have coordinated interests. Issues related to miners' health and safety 
can and do coincide with OSM's charge to protect the public and the 
environment.
    While I was at MSHA, I had the opportunity to participate in 
periodic technical coordination meetings that OSM and MSHA hold, and 
oversaw the development of a report to Congress which detailed OSM's 
and MSHA's responses to a National Academy of Science report issued in 
connection with the Martin County Coal Corporation's impoundment 
failure in Kentucky: MSHA and OSM have been working closely with the 
States to ensure that the best science and engineering are used to 
review and inspect coal mining impoundments. We have also worked to see 
that these responsibilities are carried out in a manner which meets 
MSHA's responsibility to protect miners and OSM's responsibility to 
protect the public and the environment.
    There has also been extensive coordination in mapping underground 
mines. OSM and MSHA have worked together with the States to address the 
need for accurate, up-to-date, and readily available underground mine 
maps.
    The two agencies have cosponsored, in conjunction with States and 
Tribes, a number of meetings and have been holding regular meetings to 
coordinate standards and approaches. The goal of these efforts has been 
the transfer of information and the development of data systems to 
protect miners, public health and safety, public and private 
infrastructure, and the environment from risks that may be associated 
with active or abandoned underground mines.
    Question 2. What do you believe is the proper nexus between OSM and 
other federal agencies that regulate mining, such as MSHA, where you 
are currently serving?
    Answer. I believe that all Federal agencies are responsible for 
identifying areas of over-lap with other agencies and for coordinating 
their various activities to achieve consistent regulation while 
minimizing overlap. There are numerous agency activities affecting coal 
mining where significant synergy exists. Such is the case with OSM and 
EPA and their state partners, as well as with MSHA, the Army Corps of 
Engineers, and other agencies within the Department of the Interior.
    Establishing a professional relationship among the various agencies 
that is built on respect and open dialogue, while retaining the main 
focus on the respective missions, benefits government and the regulated 
community.
    Question 3. What have you experienced in your four years at MSHA 
that you think will be most helpful to you at OSM?
    Answer. In my years at MSHA, I have gained a real appreciation for 
how the Federal government works, including the interaction among 
various bureaus and Departments within the executive branch, the role 
of Congress in oversight, the Federal budget process, and the 
perspective of regulating agencies.
    I also gained affirmation that outreach to the various stakeholders 
in the form of alliances, partnerships, and technology transfer 
initiatives plays a critical role in effective government.
    Question 4. A large part of what you will be doing is related to 
environmental issues. What career experiences have you had that you 
believe qualifies you to make policy decisions regarding such issues?
    Answer. My undergraduate studies resulted in a Bachelor of Science 
degree in Safety and Environmental Management. My entire professional 
career has been devoted to loss prevention applied to mining. This 
broad discipline focuses on preservation of human and physical assets 
in the work environment. Loss prevention includes safety and health, as 
well as education/training, environmental, and loss control (physical 
assets, etc.).
    Beyond my technical expertise, I have had significant experience in 
senior management and leadership roles, both in the private sector and 
the Federal government. I also have worked with OSM on issues where our 
two offices have coordinated activities, such as reviewing policies and 
standards for impoundments.
    As the Director, I would draw on my technical skills and knowledge, 
and management and leadership skills to make required policy decisions, 
to ensure compliance with all laws, rules, and regulations, and to 
afford appropriate assistance to and oversight of States and Tribes.
    Question 5. Under the Surface Mining Reclamation and Control Act, 
the Authority of the States is central to the operation of the Act.
    Please explain your understanding of this important principle and 
the state/federal partnerships that grow out of it.
    Answer. Congress recognized the unique needs and environmental 
conditions of the States and encourages them to enact and administer 
their own regulatory programs within Federal minimum standards. OSM's 
role is to establish policy direction, give guidance and technical 
assistance to the States and Tribes, conduct oversight in accordance 
with SMCRA, and provide backup enforcement.
    Question 6. How do you envision fostering these partnerships and 
ensuring they work as intended under the Act?
    Answer. If confirmed, I intend to reach out to our State and Tribal 
partners in implementing the Act.
    I will work diligently with States and Tribes to build upon the 
Administration's emphasis on technology to achieve stable and effective 
programs under the Act.
    Question 7. In what ways do you think the federal government could 
better assist the States in regulating mining and reclamation?
    Answer. The States themselves are best able to answer this 
question. The OSM has a tradition of strong partnership with the States 
and Tribes. I am committed to continuing that relationship and building 
upon it. If confirmed, I will work with States and Tribes to respond to 
their needs and to ensure that they receive support and assistance from 
the OSM.
    Question 8. Reauthorization of the Abandoned Mine Lands program 
continues to be an important, but thorny problem facing the Congress. 
Unfortunately, the cleanup of abandoned mines has become linked with 
miners' health benefits.
    I'm interested to know what you see as the best approach to attempt 
to solve the inequities that some States see in the program.
    Answer. I believe this is a national problem that requires a 
comprehensive long-term solution. The program must find a way to 
balance the needs of both eastern and western states. If confirmed, I 
commit to working with this Committee and other affected Members of 
Congress as we try to resolve this issue.
    Question 9. How do you envision working with Congress, the States, 
and other parties to find an acceptable solution?
    Answer. If confirmed, I would strive to serve as a facilitator 
among all stakeholders, working within the Administration's principles 
to achieve an appropriate, fiscally responsible, and fair long-term 
resolution to the reauthorization discussion.
    Responses of John Ray Correll to Questions From Senator Bingaman
    Question 10. Congressman Rahall has said that you were part of the 
leadership of the Mine Safety and Health Administration ``during a time 
when the policy floor fell out,'' and ``during the worst rash of coal 
miner fatalities in recent times.'' In addition, the United Mine 
Workers has written that, under your direction, 17 proposed safety 
rules were withdrawn and MSHA approved a rule on the use of belt air, 
which may have contributed to the Alma mine accident earlier this year.
    Please respond to these statements.
    Specifically, please explain what role, if any, you played in 
delaying or withdrawing each of the health and safety rules identified 
in the Appendix to the Review of Federal Mine Safety and Health 
Administration's Performance from 2001 prepared by the Democratic Staff 
of the House Committee on Education and the Workforce earlier this 
year.
    Answer. I had no role in the rules referenced in the appendix with 
the exception of the last rule deals with diesel particulate matter. 
While I participated in that rule making, it was not finalized before I 
started my detail.
    According to the dates given in the report, thirteen (75%) of these 
were withdrawn during the year prior to my employment with MSHA. Four 
of the remaining five proposed rules wee withdrawn less than 60 days 
following my hire date.
    I did not engage in any discussion or participate in any decision 
regarding a proposed rule on the use of belt air during my employment 
with MSHA.
    Question 11a. The United Mine Workers has also said that you were 
linked to the award of single-source, no-bid contracts, which the 
Department of Labor's Inspector General later found to have been 
improper.
    What involvement, if any, did you have in the procurement problems 
identified by the Inspector General in his October 29, 2004 report?
    Answer. The Department of Labor's Inspector General (IG) Office of 
Audit conducted an audit of MSHA procurement and contracting practices 
for the period June 2000 through December 2002. The objective of the 
audit was to determine if allegations of fraud, waste, or abuse 
received during the period from May 2002 through May 2003 involving 
procurement of office furniture, travel management services, purchase 
card usage, computer security, and personnel issues had merit.
    My only involvement in the IG's audit resulted from the fact that 
while employed in the private sector I was a member of the 
International Society of Mine Safety Professionals where I was elected 
to serve as an executive board member and also as the executive 
director. Both were voluntary, non-paid positions with the not-for-
profit organization.
    During the year prior to my employment with MSHA, a contractor 
(also a member of the professional society) had received compensation 
to provide training necessary to certify MSHA employees as Certified 
Mine Safety Professionals. The IG audit examined the financial 
arrangements for the training, as well as my position with the Society 
and subsequent employment with MSHA, and concluded that there had been 
no conflict of interest or wrong-doing of any sort on my part.
    I was not implicated in any other aspect of the IG audit.
    Question 11b. Specifically, please identify each of the incidents 
listed in the table on pages 1 and 2 of the Inspector General's report 
with which you were involved.
    Answer. Items 2 & 3 on the table shown on page 1 are discussed 
above. I was not implicated in any manner in any of the other items 
listed on the two tables.
    Question 12. What role did you play in the disciplinary actions 
taken against an MSHA whistleblower named Jack Spadaro? Did Mr. 
Spadaro's complaints about the agency's handling of the Martin County 
accident investigation play any role in the personnel actions taken 
against him?
    Answer. In October 2003, the Department proposed the removal of Mr. 
Jack Spadaro, then Superintendent of MSHA's Mine Health and Safety 
Academy located in Beckley, West Virginia. Since I was a senior 
official outside the chain of command and had no knowledge of Mr. 
Spadaro, I was designated as the deciding official in this matter.
    Based on the information before me, I sustained all five charges 
against Mr. Spadaro and, with advice of Department of Labor counsel, 
applied the ``Douglas Factors'' to mitigate Mr. Spadaro's termination 
to a demotion. Mr. Spadaro's complaints concerning the Martin County 
investigation played no role in my decision. The matter was thoroughly 
investigated by the Office of Special Counsel, which made a preliminary 
determination against Mr. Spadaro. Mr. Spadaro then filed a complaint 
with the Merit Systems Protection Board, which also made a preliminary 
finding against him. Based on widespread public reports, it is my 
understanding that ultimately Mr. Spadaro withdrew his complaint and 
retired pursuant to a settlement agreement.
    Question 13. What is your current position within the Mine Safety 
and Health Administration and why were you detailed or reassigned to 
other duties?
    Answer. I continue to hold the Deputy Assistant Secretary--
Operations position in the Mine Safety and Health Administration while 
I remain on temporary assignment within the Department of Labor. I 
became the DAS--Ops on July 22, 2002. This is a career Senior Executive 
Service position.
    On May 31, 2005, the Department of Labor moved me to a temporary 
detail assignment within the Department's Employment Standards 
Administration to assist in the implementation of the Energy Employees 
Occupational Illness Compensation Program. This program had been moved 
to the Department of Labor from the Department of Energy a few months 
earlier. I was assigned to this job because of my extensive background 
in mining and disability compensation claims management. While working 
with the Director's Part E Task Force, I was responsible for developing 
a number of program components including an exposure matrix for 
identifying and classifying more than 4,000 uranium mines and 
developing several claim management policies and procedures.
    In January, 2006, I was detailed (while still holding the DAS 
position at MSHA) as a Special Assistant to the Office of Assistant 
Secretary for Administration and Management. Based on my project 
management experience, I was assigned to provide guidance and 
leadership in reviewing the Department's Safety and Health program 
elements, and to further develop the President's Safety, Health and 
Return-to-Employment (SHARE) initiative. I have also assisted the 
Assistant Secretary by providing project management on several key 
policy projects, as well as other administrative projects for the 
Department, including HSPD-12 and several E-Initiatives.
                                 ______
                                 
     Responses of Mark D. Myers to Questions From Senator Domenici

    Question 1. Dr. Myers, your statement indicates a high degree of 
familiarity and experience with USGS. Based on these experiences, what 
is your vision for improving the USGS?
    Answer. If confirmed, I will come to USGS believing deeply in its 
mission and committed to ensuring that the agency continues to live up 
to its promise of providing sound science for citizens and decision 
makers. The following are the principles that I will use in striving to 
maintain and improve the agency's effectiveness in fulfilling its 
mission.

        1. First and foremost, ensure that the high internal standards 
        and ethics of USGS are maintained. It is paramount that the 
        science is truly unbiased and accurate, that the data and 
        analyses are publicly available, and that publications are 
        subject to a rigorous peer-review process.
        2. Robust planning will help the organization stay focused on 
        core missions and key issues of national importance where 
        science is needed. Good science takes time and requires both 
        focus and anticipation of the issues. Active workforce planning 
        will allow USGS to look toward the future and focus resources 
        on its core mission responsibilities.
        3. Maximize the use of advanced technology and the best 
        available data. New technology (for example GIS and 3-D and 4-D 
        seismic) is revolutionizing the biological and earth sciences. 
        The USGS needs to assure it has the people, equipment and data 
        to apply these leveraging technologies.
        4. Increase USGS's use of highly skilled multidisciplinary 
        teams to approach projects. One of the strengths of USGS is 
        that it has both world class specialization and breadth that 
        can be brought to bear.
        5. Build on the continuing efforts for collaboration and 
        consultation with sister organizations, resource managers, and 
        regulators on the international, national, State, and local 
        levels.
        6. Continue to improve communications internally as well as 
        externally.

                              WATER ISSUES

    Question 2. Population growth, endangered species demands and 
frequent drought have resulted in a paucity of water in the west. In 
order to make informed decisions about this limited resource, we need 
to have the best scientific information available.
    In general, do you believe that we have an adequate understanding 
of our water resources?
    Answer. I believe that we need to do more to improve our 
understanding of water resources and that much has changed over time--
demand and competition for water have increased, new sources and 
technologies have been developed, and in some areas, resources have 
been depleted or contaminated. Better knowledge is needed to help 
Federal, State, and local governments, the private sector, and the 
public plan for the future.
    Question 3. What do you believe the USGS's role should be in 
addressing water availability problems?
    Answer. I believe that USGS has an important role to play in 
addressing water availability issues. Reliable, impartial, long-term 
monitoring and assessment of water resources by USGS provides the 
science needed by the public and decision-makers to assess water 
availability, understand drought and its impact on water supply, and 
manage the use of water resources responsibly.
    From my perspective, we do not have an adequate understanding of 
our groundwater resources. In many instances, communities that are 
completely reliant on groundwater do not have a sense of how long these 
resources will last. Additionally, many western states have vast 
brackish water resources contained in underground aquifers. In order to 
assess the viability of using this brackish water, we need a better 
understanding of these aquifers, particularly as desalination becomes 
more affordable.
    Question 4. If confirmed, how would you expand our knowledge of 
underground water resources?
    Answer. I recognize the value of USGS science as it applies to 
understanding groundwater resources. If confirmed, I will ensure easy 
access to existing scientific information regarding groundwater 
availability in the Nation's major aquifer systems. I will also strive 
to maintain and strengthen our partnerships with sister State and local 
agencies involved with water research.
    Question 5. What role do you believe the USGS should play in 
identifying which aquifers may be suitable for desalination?
    Answer. I believe USGS has an important role in providing the 
unbiased science needed to help resource managers address issues 
associated with desalination of brackish groundwater, including 
assessments of the reservoirs and their water chemistry.
    Question 6. What are the major ground water related challenges 
facing the nation in the next decade and what role should the USGS play 
in addressing these issues?
    Answer. Sustainable development of groundwater is vital to the 
economic life of communities, businesses, households, and farmers 
nationwide. We must be mindful, also, that how the resource is 
developed will have impacts on communities, ecosystems, and the amount 
and quality of water available to future generations. The USGS should 
continue to make major contributions to groundwater science and 
characterization of the resource including modeling, monitoring, 
assessment, and process research that helps others develop strategies 
to optimize use of this valuable resource in a sustainable manner.
    Aquifer re-injection and storage is a promising way to increase the 
water available to the West. In many instances, aquifer storage 
minimizes evaporative loss and does not have the environmental impact 
associated with surface storage. Additionally, it is unclear whether 
there are significant opportunities for new surface storage.
    Question 7. What role do you believe the USGS should play in 
investigating the feasibility of aquifer re-injection and storage?
    Answer. I understand that USGS is developing and applying new 
methods to assess and monitor aquifer re-injection, storage, and 
recovery, as well as investigating the role of geochemistry and 
microbial activity in storage and recovery. I believe USGS should 
continue this role.
    Question 8. In your opinion, is aquifer storage something that 
should be investigated on a more widespread basis?
    Answer. Yes. Aquifer recharge for storage was initially considered 
in coastal and and parts of the United States, but its use is now 
envisioned throughout the United States as the competition for water 
increases. The USGS has provided and should continue to provide data 
and other scientific analysis which will help decisionmakers and the 
public understand groundwater resources.
    Question 9. What do you see as main challenges for aquifer storage 
and what role can USGS play in meeting these challenges?
    Answer. The USGS has a solid reputation in scientific 
investigations of artificial recharge and continues to develop 
innovative monitoring techniques and groundwater modeling to address 
the challenges of artificial recharge. Major challenges for aquifer 
storage include effects on aquifer chemistry and the long-term 
efficiency of injection/withdrawal cycles.
    Question 10. How do you plan to identify the gauges most in need of 
repair and prioritize maintenance of these facilities?
    Answer. USGS streamgages across the Nation have many purposes, 
including protecting lives and property during floods, designing 
infrastructure, assessing and managing water resources, and measuring 
interstate compact obligations. If confirmed, I would work with USGS 
experts to determine and prioritize the extent of the backlog of needs 
for maintenance and upgrade of these monitoring systems. I would ask 
USGS to work closely with the States and other users of the information 
to set priorities based on uses of the data that these systems provide.
    Question 11. In an era of tight budget constraints, how can the 
nation maximize its investment in surface water and ground water 
monitoring to address pertinent scientific and policy questions?
    Answer. I believe that partnerships (between the Federal Government 
and the States, localities, Tribes and others that use surface and 
groundwater data) are the answer to maximizing the Nation's investment 
in surface-water and groundwater monitoring. If confirmed, I will work 
with USGS to continue to explore a wide range of technologies, 
institutional arrangements, and partnerships to determine if there are 
more cost-effective approaches to surface-water and groundwater 
monitoring than those currently being used. The USGS should also work 
to develop, test, and introduce new technologies that will allow for 
cost reductions.
    Question 12. What do you believe is the appropriate role for the 
federal government, state government and the private sector in 
collecting and analyzing water monitoring data?
    Answer. Because all communities and many industries rely on water, 
information about water quantity and quality is valuable for many 
different types of users--cities, irrigation districts, recreational, 
emergency managers, Federal and State water management agencies, and 
others. The provision of drinking water is a State and local function, 
and this certainly creates strong incentives for the States and 
sometimes private sector to play a strong role in water research and 
monitoring. However, especially in areas of water scarcity, or areas 
that are experiencing a drought, there are often conflicting interests 
that water managers must balance in making resource allocation 
decisions. Sometimes, the interests that are being balanced involve 
parties from different towns or even different States or regions of the 
country. Watershed and aquifer boundaries do not correspond with 
political boundaries, and in this environment a neutral scientific 
agency that can provide accurate data is invaluable for ensuring 
informed decision making. The USGS has a long history of providing 
unbiased water data that all parties accept. The USGS has played a 
constructive role for all States as a major source of water information 
for over 100 years, and I believe it is appropriate for it to continue 
to do so in the future.

     Responses of Mark D. Myers to Questions From Senator Bingaman

    Question 13. The Department has historically played a principle 
role in ensuring we, as a nation, understand the extent and 
availability of minerals found on federal lands.
    Through years of neglect and indifference we have been gutting or 
dismantling the very agencies that provide this basic information about 
our nation's mineral and geologic resources. This Administration has 
continued this trend with the budget request we received for 2007. The 
Senate has once again restored the funding for these critical programs, 
but I am worried that the administration will continue down this path.
    I am deeply concerned about how we address the mineral needs of the 
nation. The USGS is responsible for collecting and reporting on the 
mineral resources for the nation.
    What do you consider to be the Department's mission in advancing 
the knowledge and use of valuable mineral resources from Federal Lands?
    Answer. The USGS Mineral Resources Program provides important 
scientific information for objective resource assessments and unbiased 
research results on mineral potential, production, and consumption on 
Federal lands. Understanding and exploring the Nation's mineral 
potential is an important component of the Organic Act for the USGS. 
Coming from a State that has a long history in mining, I am well aware 
of the importance of this data.
    Question 14. Land management agencies make land use allocation 
decisions every day. How would informed decisions be made if basic 
mineral information is not available?
    Answer. The Mineral Resources Program comprises two major 
functions; first, a research and assessment function provides 
information for land managers and decision makers about where mineral 
commodities are known and suspected in the Earth's crust, and second, a 
data collection, analysis, and dissemination function describes current 
production and consumption of about 100 mineral commodities. This 
information helps land management agencies make many vital decisions 
about their holdings and fulfill their stewardship responsibilities. 
Decision-making in certain areas would be much more difficult without a 
readily available source of this information.
    Question 15. Would you be prepared to assist this committee in 
reviewing and prioritizing USGS programs?
    Answer. I would be pleased to work with the committee on these 
matters.
    Question 16. The current administration has been criticized for 
manipulating, suppressing, or disregarding scientific information. If 
confirmed to head one of the Interior Department's premier scientific 
organizations, what steps would you take to protect the integrity of 
the scientific work of the Geological Survey?
    Answer. I believe the integrity of the science that USGS produces 
is its most important asset. If confirmed, I intend to do all I can to 
continue that legacy. I have been informed that USGS recently revised 
its manual to deal with Fundamental Science Practices such as peer 
review, conducting data collection and research, and ensuring that 
accurate information is disseminated to the public in a timely fashion. 
If confirmed, I intend to carefully review the Fundamental Science 
Practices and ensure that USGS's reputation for high quality unbiased 
science continues.
    Question 17. What steps will you take to ensure that quality 
assurance problems like those that arose in the work that the USGS 
performed on the Yucca Mountain nuclear waste repository for the 
Department of Energy are never repeated?
    Answer. Although I do not know all the details of the Yucca 
Mountain matter, I am informed that USGS recently conducted a meeting, 
``Quality Assurance and Employee Ethical Conduct Focus Days,'' for 
employees working on the Yucca Mountain Project. Senior management's 
substantive involvement in this meeting demonstrates the seriousness 
and importance of the issues. If confirmed, I will stress that the 
highest ethical standards must be maintained to ensure that all USGS 
programs deliver high quality, dependable work products. Throughout my 
professional career, I have had the utmost respect for the employees of 
USGS, and confidence in the integrity of their work.
    Question 18. What do you see as the most urgent scientific 
questions facing the USGS today?
    Answer. I believe that the most urgent scientific questions facing 
USGS are those where the research can make a positive difference in our 
human condition and interface with the natural world. Although the 
importance of various areas of research may vary by State or region, 
some are universal, such as energy, water, natural hazards, climate, 
landscape change, biodiversity, and ecosystems. If confirmed, I look 
forward to consulting with both USGS scientists and our stakeholder 
groups and I will listen carefully to the answers they give in response 
to questions similar to yours.
    Question 19. How will you establish priorities among competing 
programs and maximize the USGS's contribution to scientific 
understanding?
    Answer. If confirmed, I plan to listen carefully to the dedicated 
employees of USGS and the agency's many partners, cooperators, and 
constituencies. In today's era of tight budgets, I am sure there will 
be many difficult decisions to make, but that is part of what executive 
leadership is about, and I am confident that I can make those decisions 
while maximizing USGS contributions to scientific understanding. I am 
told that USGS has formed a Science Strategy Team that is looking at 
science priorities for the next decade, and I hope that this Team will 
provide valuable insights that will assist with the prioritization 
process.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                   National Safety Council,
                                         Itasca, IL, July 18, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senators Domenici and Bingaman: It is my pleasure to write in 
support of the nomination of Mr. John R. Correll for the position of 
Director, Office of Surface Mining, United States Department of 
Interior. The National Safety Council has had a long and rewarding 
relationship with Mr. Correll, particularly in his capacity as a 
leading federal official whose activities have impacted the mining 
industry and thousands of men and women who work in America's mines.
    Mr. Correll has been a conscientious leader making positive 
contributions in workplace safety and health practices while at the 
Department of Labor and the Mine Safety and Health Administration, as 
well as in his extensive responsibilities in the private sector. His 
experience reflects extraordinary dedication to both his employers and 
assignments and an extensive knowledge of the coal mining industry, an 
exceptional asset for this position.
    Above all, his character, allegiance and integrity are without 
question. Our organizational connections as well as personal 
interactions have frequently confirmed these attributes. We are 
confident that Mr. Correll will be an asset to the Department of 
Interior and the nation. We look forward to his successful confirmation 
by your committee and the United States Senate.
    Thank you for considering my comments. Please feel free to contact 
me if you have any questions or need additional information.
            Sincerely,
                                          Alan C. McMillan,
                             President and Chief Executive Officer.
                                 ______
                                 
                            United Mine Workers of America,
                                        Fairfax, VA, July 19, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Domenici: I am writing to express my deep concern 
about the pending nomination of John It. Correll for the position of 
Director of the Office of Surface Mining and Reclamation (OSM).
    The Committee on Energy and Natural Resources should closely 
examine Mr. Correll's performance at the Mine Safety and Health 
Administration (MSHA), where he served as a Deputy Assistant Secretary 
of Labor. Under Mr. Correll's direction, 17 proposed regulations were 
pulled from MSHA's regulatory agenda, a number of which could have 
helped to prevent some of the 34 coal mine fatalities that have 
occurred this year. Under his misguided leadership, MSHA approved a 
regulation permitting the use of belt air to ventilate working faces of 
underground mines, a move that may have contributed to the two 
fatalities at the Alma # 2 mine in West Virginia earlier this year.
    In addition, Mr. Correll has been linked to a contracting scandal 
that occurred on his watch. The Department of Labor's Office of 
Inspector General determined that MSHA violated federal procurement 
procedures by wrongfully awarding single-source, no-bid contracts. Two 
companies involved had alleged ties to John Correll. One of these 
contracts, totaling $200,000 for educational training, had been 
recorded at MSHA as just 180 small contract& In light of his record, it 
is ironic that when announcing his nomination, OSM touted his 
responsibility for the management of all aspects of MSHA.
    The United Mine Workers of America (UMWA), the largest labor union 
representing coal miners in this country, has a long history of 
representing the interests of not only coal miners on the job but also 
the communities in which they live across the country. Just as coal 
miners need an advocate for health and safety at MSHA, residents of 
coal field communities deserve an advocate at OSM whose first priority 
is to enforce our nation's surface mining and reclamation laws.
    Mr. Correll has clearly demonstrated at MSHA that his priorities 
are instead to promote the interests of the mining industry and his 
friends. His nomination should be rejected by the Committee.
            Sincerely yours,
                                          Cecil E. Roberts,
                                           International President.
                                 ______
                                 
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senators Domenici and Bingaman: This letter is too express 
opposition to the nomination of John Correll. His past record as 
follows shows why he would not be good for the job. We need enforcement 
of the laws.
    Correll was a Deputy Assistant Secretary of Labor and responsible 
for the day-to-day management of the Mine Safety& Health Administration 
for five years. During his tenure the total number of federal mine 
health and safety inspectors was reduced by 217. This resulted in far 
fewer inspections in both coal mines and metal and non-metal mines 
nationwide. MSHA has not been able to meet the mandated number of 
inspections per year [4 for every underground mine and 2 for every 
surface mine]. The inspection program has collapsed. The result has 
been a record number of fatalities in the nation's mines during the 
first six months of 2006. Correll was such an inept administrator that 
he was essentially buried in the Dept. of Labor by David Dye, the 
current Acting Asst. Secretary for MSHA.
    Correll was instrumental in the shelving of 17 new mine health and 
safety rules that had been proposed by the previous administration. One 
of those rules would have improved requirements for flame resistance in 
materials used in mine conveyor belts. Had the rule been in effect, the 
February 2006 fire at the Aracoma Mine in Logan County, WV resulting in 
two fatalities would not have occurred.
    Correll supported a drastic rule change in 2004 that allowed intake 
air to be brought into underground mines through conveyor belt entries. 
This rule change greatly increased the probability that miners would be 
trapped in by mine fires in belt entries. That is exactly what happened 
at both the Sago Mine disaster and the Aracoma mine fire. The use of 
belt entries for intake air previously had been forbidden by MSHA rules 
since the early 1970s.
    Correll was the CEO for an organization called the International 
Mine Safety Professionals. One of his associates was Ben Shepherd. Ben 
Shepherd got an illegal sole source contract from MSHA to conduct 
training for MSHA supervisors. Shepherd charged the agency $1025/
student. He shared the profits with the International Mine Safety 
Professionals. The agency issued 180 individual contracts to avoid 
detection for violating federal procurement rules. The scam was 
publicly exposed. The Office of Inspector General investigated and 
concluded that the contracts were illegal. Correll continued as CEO for 
the International Society for months after coming to work for MSHA. 
This scam was also reported on ``60 Minutes'' on April 4, 2004.
    Correll participated in the cover-up regarding the Martin County 
Coal Slurry Spill [Massey Energy] of October 2000. This was the 300 
million gallon coal slurry discharge that polluted 100 miles of streams 
in Eastern Kentucky and WV. EPA called it the worst environmental 
disaster in the eastern U.S. Correll was the overseer of the internal 
MSHA review that should have exposed MSHA's prior knowledge of the 
unsafe conditions at the coal waste impoundment. Instead, the report 
left MSHA blameless and was limited in scope by Correll and his boss 
Dave Lauriski. Correll also was a key player in the retaliation efforts 
by MSHA against the whistle-blower who exposed the cover-up. This was 
also detailed in the ``60 Minutes'' program of April 4, 2004, as well 
as in the New York Times and other newspapers.
(Information provided by Jack Spadaro)
    Lexington Herald-Leader editorial on Correll's nomination: Posted 
on Friday, May. 19, 2006

                       EDITORIAL: THROW HIM BACK

Nominee bad choice to oversee strip-mining
    One of the industry apologists who rolled back mine-safety 
protections is President Bush's choice to head the agency that oversees 
strip-mining.
    Unbelievable, but true.
    Thousands of Kentuckians depend on the U.S. Office of Surface 
Mining to protect them from strip-mining's worst abuses, including 
blasting that destroys their property, road building that sends 
boulders crashing down on homes and poisonous run-off into streams and 
groundwater.
    Nothing in John Correll's tenure at the Mine Safety and Health 
Administration, where he was one of Dave Lauriski's two top deputies, 
recommends him for this appointment.
    Just the opposite.
    Correll is loaded with the kind of baggage that should block his 
confirmation in the Senate, especially after recent mine disasters 
raised serious questions about MSHA's performance.
    Correll was part of the leadership team that axed safety rules that 
would have beefed up mine rescue teams and required flame-resistant 
conveyor belts, changes that might well have saved miners' lives in 
recent months.
    Bush appointees at MSHA changed the agency's focus from enforcement 
to working with the industry.
    They withdrew or delayed 18 mine-safety rules, including an 
increase in emergency breathing devices, requiring manufacturer 
expiration dates on the devices and more frequent inspectors.
    The lone survivor of the Sago mine disaster, where 12 men perished, 
has said that some of the trapped miners couldn't make their breathing 
devices work.
    But even without those life-and-death issues, Correll would be a 
questionable person to head the agency that's responsible for 
protecting Appalachia's water, land and private property from damage by 
strip mining and mountaintop removal.
    Like so many Bush appointees, he came straight from the industry he 
was supposed to regulate. At MSHA, he was part of a small band of 
cronies whose involvement in awarding single-source contracts drew 
criticism from an inspector general.
    Lauriski's successor at MSHA, David Dye, apparently banished 
Correll to the bowels of the Labor Department. But that reality was not 
reflected in Acting Interior Secretary Lynn Scarlett's announcement of 
his nomination. Her announcement implies that he's still working as 
MSHA's head of operations.
            Thank-you,
                                              Teri Blanton,
                                                         Berea, KY.
                                 ______
                                 
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Senator Bingaman: John Correll's record 
make him a bad choice to head the U.S. Office of Surface Mining, 
Reclamation and Enforcement. As you know, the OSM's primary objectives 
are to ensure that coal mining activities are conducted in a manner 
that protects citizens and the environment during mining, to ensure 
that the land is restored to beneficial use following mining, and to 
mitigate the effects of past mining by aggressively pursuing 
reclamation of abandoned coal mines.
    Because of his record, I believe Mr. Correll cannot fulfill these 
duties. Please oppose his nomination to this post. Note that:

  <bullet> Mr. Correll was a Deputy Assistant Secretary of Labor and 
        responsible for the day-to-day management of the Mine Safety 
        and Health Administration for five years. During his tenure the 
        total number of federal mine health and safety inspectors was 
        reduced by 217. This resulted in far fewer inspections in both 
        coal mines and metal and non-metal mines nationwide. MSHA has 
        not been able-to meet the mandated number of inspections per 
        year (4 for every underground mine and 2 for every surface 
        mine). The inspection program has collapsed. The result has 
        been a record number of fatalities in the nation's mines during 
        the first six months of 2006.
  <bullet> Mr. Correll was instrumental in the shelving of 17 new mine 
        health and safety rules that had been proposed by the previous 
        administration.
        One of those rules would have improved requirements for flame 
        resistance in materials used in mine conveyor belts. Had the 
        rule been in effect, the February 2006 fire at the Aracoma Mine 
        in Logan County, W.Va. resulting in two fatalities would not 
        have occurred.
  <bullet> Mr. Correll supported a drastic rule change in 2004 that 
        allowed intake air to be brought into underground mines through 
        conveyor belt entries. This rule change greatly increased the 
        probability that miners would be trapped in by mine fires in 
        belt entries. That is exactly what happened at both the Sago 
        Mine disaster and the Aracoma mine fire. The use of belt 
        entries for intake air previously had been forbidden by MSHA 
        rules since the early 1970s.
  <bullet> Mr. Correll was the CEO for an organization called the 
        International Mine Safety Professionals. One of his associates 
        was Ben Shepherd. Ben Shepherd got an illegal sole source 
        contract from MSHA to conduct training for MSHA supervisors. 
        Shepherd charged the agency $1025/student. He shared the 
        profits with the International Mine Safety Professionals. The 
        agency issued 180 individual contracts to avoid detection for 
        violating federal procurement rules. The scam was publicly 
        exposed. The Office of Inspector General investigated and 
        concluded that the contracts were illegal. Correll continued as 
        CEO for the International Society for months after coming to 
        work for MSHA.
        This scam was also reported on ``60 Minutes'' on April 4, 2004.
  <bullet> Mr. Correll participated in the cover-up regarding the 
        Massey Energy Martin County Coal sludge disaster of October 
        2000. 6 million gallons of coal sludge polluted 100 miles of 
        streams in Eastern Kentucky and West Virginia. EPA called it 
        the worst environmental disaster in the eastern U.S.
    Correll was the overseer of the internal MSHA review that should 
have exposed MSHA's prior knowledge of the unsafe conditions at the 
coal waste impoundment. Instead, the report left MSHA blameless and was 
limited in scope by Correll and his boss Dave Lauriski. Correll also 
was a key player in the retaliation efforts by MSHA against the 
whistle-blower who exposed the cover-up. This was also detailed in the 
``60 Minutes'' program of April 4, 2004, as well as in the New York 
Times and other newspapers.

    Again, please oppose Mr. Correll's nomination to head OSM. Thank 
you for your consideration.
            Sincerely,
                                      Joellen Sbrissa, CSJ,
                                                       Chicago, IL.
                                 ______
                                 
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Senator Bingaman: In considering Mr. 
John Correll's nomination to head the Office of Surface Mining, 
Reclamation and Enforcement, I urgently and very strongly urge you to 
critically and thoroughly review his record, not only his proven 
disregard for mine workers' safety, but also his ties to a scam and 
proven illegal practices regarding federal procurement rules when he 
was the CEO of the International Mine Safety Professionals.
    For years, hard-working miners' safety and the reclamation of the 
environment from mining devastation have both been a sham. During this 
time, many bureaucrats have been worthless. But with Mr. Correll in 
charge, he would be more than an embarrassment; he would be downright 
dangerous. He must be rejected, for the benefit of the coal industry as 
well as for our nation.
    Mr. Correll also has been irrefutably linked to brazen 
environmental atrocities in the eastern coalfields. As a lackey for the 
coal industry, he would be a detriment and indeed an endangerment not 
only to coal miners and the environment, but to 1 million Americans in 
the 18,500-mile coalfields of West Virginia, Kentucky, Virginia, 
Tennessee, and Pennsylvania. I could go on ad infinitum about this 
man's despicable record.
    The safety of our nation's coal miners already has been compromised 
during the past five years, as evidenced by the increase in mining 
accidents and fatalities. Some of the deceased miners' blood is on Mr. 
Correll's hands, and I shudder to think how it would splatter across a 
broader political swath with Mr. Correll at the helm.
            Sincerely,
                                                 Bud Fultz,
                                                         Tampa, FL.
                                 ______
                                 
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Senator Bingaman: As a West Virginia 
resident and career environmental manager I am deeply concerned about 
the nomination of John Correll to head the U.S. Office of Surface 
Mining, Reclamation and Enforcement. The OSM's primary objectives are 
to ensure that coal mining activities are conducted in a manner that 
protects citizens and the environment during mining, to ensure that the 
land is restored to beneficial use following mining, and to mitigate 
the effects of past mining by aggressively pursuing reclamation of 
abandoned coal mines. But Mr. Correll's record indicates that he is 
poorly suited to ensure that these goals are met, and his confirmation 
would seriously jeopardize the integrity of the office that he is 
nominated for. I therefore ask that you oppose his nomination to this 
post.
    Please note that:
Mr. Correll has proved lax in his enforcement of relevant laws.
    During his tenure as a Deputy Assistant Secretary of Labor (during 
which he was responsible for the day-to-day management of the Mine 
Safety and Health Administration) the total number of federal mine 
health and safety inspectors was reduced by 217. This resulted in far 
fewer inspections in both coal mines and metal and non-metal mines 
nationwide. MSHA has not been able to meet the mandated number of 
inspections per year (4 for every underground mine and 2 for every 
surface mine). The inspection program has collapsed. The result has 
been a record number of fatalities in the nation's mines during the 
first six months of 2006.
Mr. Correll has shown little interest in improving mine safety.
    He was instrumental in the shelving of 17 new mine health and 
safety rules that had been proposed by the previous administration. One 
of those rules would have improved requirements for flame resistance in 
materials used in mine conveyor belts. Had the rule been in effect, the 
February 2006 fire at the Aracoma Mine in Logan County, W.Va. resulting 
in two fatalities would not have occurred. In fact, moving in the 
opposite direction, he supported a drastic rule change in 2004 that 
allowed intake air to be brought into underground mines through 
conveyor belt entries. This rule change greatly increased the 
probability that miners would be trapped in by mine fires in belt 
entries. That is exactly what happened at both the Sago Mine disaster 
and the Aracoma mine fire. The use of belt entries for intake air 
previously had been forbidden by MSHA rules since the early 1970s.
Mr. Correll has already been associated with scandal and conflicts of 
        interest.
    Mr. Correll was the CEO for an organization called the 
International Mine Safety Professionals. One of his associates was Ben 
Shepherd. Ben Shepherd got an illegal sole source contract from MSHA to 
conduct training for MSHA supervisors. Shepherd charged the agency 
$1025/student. He shared the profits with the International Mine Safety 
Professionals. The agency issued 180 individual contracts to avoid 
detection for violating federal procurement rules. The scam was 
publicly exposed. The Office of Inspector General investigated and 
concluded that the contracts were illegal. Correll continued as CEO for 
the International Society for months after coming to work for MSHA. 
This scam was also reported on ``60 Minutes'' on April 4, 2004.
    Mr. Correll has also been implicated in the cover-up regarding the 
Massey Energy Martin County Coal sludge disaster of October 2000, in 
which six million gallons of coal sludge polluted 100 miles of streams 
in Eastern Kentucky and West Virginia. EPA called it the worst 
environmental disaster in the eastern U.S. Correll was the overseer of 
the internal MSHA review that should have exposed MSHA's prior 
knowledge of the unsafe conditions at the coal waste impoundment. 
Instead, the report left MSHA blameless and was limited in scope by 
Correll and his boss Dave Lauriski. Correll also was a key player in 
the retaliation efforts by MSHA against the whistle-blower who exposed 
the cover-up. This was also detailed in the ``60 Minutes'' program of 
April 4, 2004, as well as in the New York Times and other newspapers.

    Again, please oppose Mr. Correll's nomination to head OSM. Thank 
you for your consideration.
            Sincerely,
                                        Meleah Houseknecht,
                                                    Morgantown, WV.
                                 ______
                                 
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Senator Bingaman: John Correll's record 
make him a bad choice to head the U.S. Office of Surface Mining, 
Reclamation and Enforcement. As you know, the OSM's primary objectives 
are to ensure that coal mining activities are conducted in a manner 
that protects citizens and the environment during mining, to ensure 
that the land is restored to beneficial use following mining, and to 
mitigate the effects of past mining by aggressively pursuing 
reclamation of abandoned coal mines.
    Because of his record, I believe Mr. Correll cannot fulfill these 
duties. Please oppose his nomination to this post.
    Note that:

  <bullet> Mr. Correll was a Deputy Assistant Secretary of Labor and 
        responsible for the day-to-day management of the Mine Safety 
        and Health Administration for five years. During his tenure the 
        total number of federal mine health and safety inspectors was 
        reduced by 217. This resulted in far fewer inspections in both 
        coal mines and metal and non-metal mines nationwide. MSHA has 
        not been able to meet the mandated number of inspections per 
        year (4 for every underground mine and 2 for every surface 
        mine). The inspection program has collapsed. The result has 
        been a record number of fatalities in the nation's mines during 
        the first six months of 2006.
  <bullet> Mr. Correll was instrumental in the shelving of 17 new mine 
        health and safety rules that had been proposed by the previous 
        administration. One of those rules would have improved 
        requirements for flame resistance in materials used in mine 
        conveyor belts. Had the rule been in effect, the February 2006 
        fire at the Aracoma Mine in Logan County, W.Va. resulting in 
        two fatalities would not have occurred.
  <bullet> Mr. Correll supported a drastic rule change in 2004 that 
        allowed intake air to be brought into underground mines through 
        conveyor belt entries. This rule change greatly increased the 
        probability that miners would be trapped in by mine fires in 
        belt entries. That is exactly what happened at both the Sago 
        Mine disaster and the Aracoma mine fire. The use of belt 
        entries for intake air previously had been forbidden by MSHA 
        rules since the early 1970s.
  <bullet> Mr. Correll was the CEO for an organization called the 
        International Mine Safety Professionals. One of his associates 
        was Ben Shepherd. Ben Shepherd got an illegal sole source 
        contract from MSHA to conduct training for MSHA supervisors. 
        Shepherd charged the agency $1025/student. He shared the 
        profits with the International Mine Safety Professionals. The 
        agency issued 180 individual contracts to avoid detection for 
        violating federal procurement rules. The scam was publicly 
        exposed. The Office of Inspector General investigated and 
        concluded that the contracts were illegal. Correll continued as 
        CEO for the International Society for months after coming to 
        work for MSHA. This scam was also reported on ``60 Minutes'' on 
        April 4, 2004.
  <bullet> Mr. Correll participated in the cover-up regarding the 
        Massey Energy Martin County Coal sludge disaster of October 
        2000. 6 million gallons of coal sludge polluted 100 miles of 
        streams in Eastern Kentucky and West Virginia. EPA called it 
        the worst environmental disaster in the eastern U.S. Correll 
        was the overseer of the internal MSHA review that should have 
        exposed MSHA's prior knowledge of the unsafe conditions at the 
        coal waste impoundment. Instead, the report left MSHA blameless 
        and was limited in scope by Correll and his boss Dave Lauriski. 
        Correll also was a key player in the retaliation efforts by 
        MSHA against the whistle-blower who exposed the cover-up. This 
        was also detailed in the ``60 Minutes'' program of April 4, 
        2004, as well as in the New York Times and other newspapers.

    Again, please oppose Mr. Correll's nomination to head OSM.
    Thank you for your consideration.
            Sincerely,
                                              Susan Wright,
                                                           Pax, WV.
                                 ______
                                 
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Senator Bingaman: John Correll's record 
makes him a bad choice to head the U.S. Office of Surface Mining, 
Reclamation and Enforcement.
            Sincerely,
                                             Daniel Wright,
                                                           Pax, WV.
                                 ______
                                 
                             Hoosier Environmental Council,
                                                  Indianapolis, IN.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Senator Bingaman: This is to urge your 
committee to reject the proposed appointment of John Correll as the 
director of the U.S. Office of Surface Mining, Reclamation and 
Enforcement. Mr. Correll's documented dubious record demonstrates that 
he cannot adequately perform the duties of the post. We need regulators 
who will regulate, not work to shift the responsibility and costs of 
production from industry to the backs of the public and local 
communities.
            Thank you for your consideration,
                                           Clarke R. Kahlo,
                    Director of Regional Advancement and Education.
                                 ______
                                 
                                      Friends of the Cheat,
                                                      Kingwood, WV.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Domenici and Senator Bingaman: John Correll's record 
make him a bad choice to head the U.S. Office of Surface Mining, 
Reclamation and Enforcement. As you know, the OSM's primary objectives 
are to ensure that coal mining activities are conducted in a manner 
that protects citizens and the environment during mining, to ensure 
that the land is restored to beneficial use following mining, and to 
mitigate the effects of past mining by aggressively pursuing 
reclamation of abandoned coal mines.
    Because of his record, I believe Mr. Correll cannot fulfill these 
duties. Please oppose his nomination to this post.
    Note that:

    As Deputy Assistant Secretary of Labor, Mr. Correll was responsible 
for management of the Mine Safety and Health Administration for five 
years, during which the number of federal inspectors was reduced by 217 
and resulting in fewer than mandated inspections per year and a record 
number of mine accident fatalities in the first six months of 2006.
    Mr. Correll was instrumental in lowering safety requirements 
regarding flame resistant materials and intake air routes. This was 
before the Sago mine disaster and the Aracoma mine fire.
    Mr. Correll was the CEO for an organization called the 
International Mine Safety Professionals. One of his associates was Ben 
Shepherd. Ben Shepherd got an illegal sole source contract from MSHA to 
conduct training for MSHA supervisors. Shepherd charged the agency 
$1025/student. He shared the profits with the International Mine Safety 
Professionals. The agency issued 180 individual contracts to avoid 
detection for violating federal procurement rules. The scam was 
publicly exposed. The Office of Inspector General investigated and 
concluded that the contracts were illegal. Correll continued as CEO for 
the International Society for months after coming to work for MSHA. 
This scam was also reported on ``60 Minutes'' on April 4, 2004.
    Mr. Correll participated in the cover-up regarding the Massey 
Energy Martin County Coal sludge disaster of October 2000. 6 million 
gallons of coal sludge polluted 100 miles of streams in Eastern 
Kentucky and West Virginia. EPA called it the worst environmental 
disaster in the eastern U.S. Correll was the overseer of the internal 
MSHA review that should have exposed MSHA's prior knowledge of the 
unsafe conditions at the coal waste impoundment. Instead, the report 
left MSHA blameless and was limited in scope by Correll and his boss 
Dave Lauriski. Correll also was a key player in the retaliation efforts 
by MSHA against the whistle-blower who exposed the cover-up. This was 
also detailed in the ``60 Minutes'' program of April 4, 2004, as well 
as in the New York Times and other newspapers.

    With a record like this, I cannot think Mr. Correll would be a 
strong advocate for reclamation funding and programs that are needed to 
address water quality in hundreds of communities across Appalachian 
coal country. Again, please oppose Mr. Correll's nomination to head 
OSM. Thank you for your consideration.
            Sincerely,
                                              Keith Pitzer,
                                                 Executive Director
                                 ______
                                 
                                   State of Alaska,
                                    Office of the Governor,
                                         Juneau, AK, July 17, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Domenici: In contemplation of your hearing on July 20, 
I am writing as Governor of Alaska to express my strong support for 
the' nomination of Drue Pearce to be Federal Coordinator for Alaska 
Natural Gas Transportation Projects.
    I have known Drue since 1977 and have worked with her closely 
during her career in the public and private sectors. Drue has had a 
distinguished career in public service. In particular, I commend your 
attention to her long tenure in the Alaska Legislature during which she 
was twice president of the State Senate and served in other responsible 
capacities. During this time, she gained an in-depth knowledge of 
natural resources, public lands, fiscal, and other significant issues.
    In her service as Senior Advisor to the Secretary for Alaska 
Affairs from June 2001 to the present, she has provided valuable advice 
to the Secretary of the Interior on a broad spectrum of issues and has 
served as the Policy Coordinator for the department's preparation for 
an Alaska natural gas pipeline. Drue has also held positions of 
leadership and trust in the private sector, as exemplified by her work 
for Alaska National Bank of the North and for the Arctic Slope Regional 
Corporation.
    Throughout her public and private careers, Drue has demonstrated 
great competence, integrity, and dedication to public service. She has 
a proven track record of leadership and accomplishment. Of direct 
relevance to the position of Federal Coordinator for Alaska Natural 
Gras.Transportation Projects, she has demonstrated an ability to work 
with others and to achieve a consensus in the pursuit of common goals.
    The position of Federal Coordinator will be of great importance to 
my state and the nation. There is an urgent need to commercialize 
Alaska North Slope natural gas by permitting and constructing the 
transportation system. The benefits of this system cannot be 
overestimated, as this country searches for new sources of domestically 
produced oil and natural gas.
    I believe that Drupe Pearce is up to the task and that her 
confirmation will assist both Alaska and the federal government in our 
joint efforts to build a gas pipeline from the North Slope to markets 
in the lower 48 states. Accordingly, I recommend the committee's prompt 
approval of her nomination.
    Thank you for considering my views.
            Sincerely yours,
                                        Frank H. Murkowski,
                                                          Governor.
                                 ______
                                 
                                  Alaska State Legislature,
                                         Juneau, AK, July 15, 2006.
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    To Whom It May Concern: We are writing in support of Ms. Drue 
Pearce's nomination as Federal Coordinator for Alaska Natural Gas 
Transportation Projects. We have both served with Ms. Pearce and have a 
great deal of respect for and trust in her.
    Ms. Pearce is a very talented and knowledgeable person. She served 
as the Alaska State Senate's President for two terms and was co-chair 
of the Senate Finance Committee twice. She has broad experience in oil 
and its matters, having served as Chair of the Energy Council in 1993-
94 and from her work in the state legislature, particularly as a member 
of the joint Special Committee on Mergers. Her work was instrumental in 
protecting Alaska's rights during the proposed BP-ARCO Merger in the 
late 1990s; she deserves tremendous credit for her work during that 
difficult time.
    We both know that Ms. Pearce would do an excellent job as the 
Federal Coordinator for Alaska Natural Gas Transportation Projects. 
Drue has the ability to work in a bi-partisan manner, focusing on 
issues and results--she has tremendous depth of understanding and 
ability. She would be a true asset in what will be a difficult 
position. Thank you very much for your consideration of a fine Alaskan. 
Please do not hesitate to contact us with any questions. Representative 
Berkowitz can be reached at: (907) 465-4919 and Representative Kerttula 
can be reached at: (907) 209-5104 (cell) or (907) 465-4766 (work).
            Sincerely,
                                   Rep. Ethan Berkowitz,
                                           Minority Leader,
                                   Rep. Beth Kerttula,
                                           Minority Finance Committee 
                                               Member.
                                 ______
                                 
                            Alaska Oil and gas Association,
                                      Anchorage, AK, July 17, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Re: Nomination of Ms. Drue Pearce--Federal Coordinator for Alaska 
Natural Gas Transportation Projects

    Dear Senators: The Alaska Oil and Gas Association (AOGA) is a non-
profit trade association whose 17 member companies represent the 
majority of oil and gas exploration, production, transportation, 
refining and marketing activities in Alaska. AOGA supports the 
confirmation of Ms. Drue Pearce for the new position of Federal 
Coordinator for Alaska Natural Gas Transportation Projects.
    Ms. Pearce has demonstrated strong, proven leadership throughout 
her career. During her 17-year tenure as a state legislator, she was 
known to be a knowledgeable, tough, fair lawmaker who had the ability 
to reach across party lines and within her own caucus to build needed 
consensus on difficult issues. Ms. Pearce held key leadership positions 
while a member of the Alaska State Legislature, including serving as 
Senate President twice.
    In her most recent role as Senior Advisor for Alaska Affairs for 
the Secretary of the Department of Interior, Ms. Pearce again 
demonstrated her ability to gain support for difficult and complex 
projects from a variety of competing stakeholders. She is highly 
knowledgeable about Alaska and about the interrelationships between 
local, state, and federal governments and the private sector.
    The role of Federal Coordinator for Alaska Natural Gas 
Transportation Projects is vital to the success of commercializing 
Alaska's natural gas resources to meet the nation's energy needs. AOGA 
endorses Ms. Drue Pearce for confirmation to this important position.
            Sincerely,
                                              Judith Brady,
                                                Executive Director.
                                 ______
                                 
             Resource Development Council for Alaska, Inc.,
                                      Anchorage, AK, July 17, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Re: Confirmation of Mark Myers and Drue Pearce

    Dear Senators: The Resource Development Council for Alaska, Inc., 
(RDC) is writing to support the confirmation of Mark Myers to the 
position of Director of the U.S. Geological Survey and Drue Pearce to 
the new position of Federal Coordinator for Alaska Natural Gas 
Transportation Projects.
    RDC is a private, non-profit business association comprised of 
individuals and companies from all Alaska resource sectors--oil and 
gas, mining, timber, fishing and tourism. Our membership also includes 
the state's 13 Native regional corporations, organized labor, local 
communities and industry support firms. RDC's mission is to grow 
Alaska's economy through the responsible development of the state's 
natural resources.
    Mr. Myers is well qualified to lead the U.S. Geological Survey. He 
is a highly-regarded manager and petroleum geologist with 22 years of 
Alaskan experience and he holds a Ph.D. in Geology. He possesses a wide 
range of industry and government oil and gas experience and has strong 
leadership skills with consensus building management abilities.
    Approximately ten years of Mr. Myers' career was with industry when 
he served as a Senior Geologist for ARCO and Phillips Petroleum. For 12 
years, he worked in the State of Alaska Division of Oil and Gas as a 
petroleum Geologist and more recently, Director of the Division of Oil 
and Gas. As Director, he managed the Alaska's oil and gas resources, 
including resource evaluation, leasing, utilization, permitting, 
royalty accounting, auditing, sale of royalty oil and gas, permitting 
and inspecting. He managed a professional staff of nearly 100, 
including geoscientists, engineers, land managers, accountants, 
commercial analysts and auditors.
    In addition to Director of Oil and Gas, Mr. Myers served as State 
Geologist and Director of the Division of Geological and Geophysical 
Survey where he managed the state's geological and geophysical research 
organization of 38 scientists and support staff. The state survey 
generates, analyzes and interprets data on geologic resources and 
natural conditions, as well as maps and inventories mineral and energy 
resources on state land for use by government, private industry, 
scientists, educators and the public.
    It is also our privilege to support the confirmation of Drue Pearce 
to the new position of Federal Coordinator for Alaska Natural Gas 
Transportation Projects. Ms. Pearce is well known across Alaska and is 
highly qualified for this position. She too is a consensus builder with 
strong leadership skills and a distinguished record of public service.
    Ms. Pearce was elected to the Alaska State House in 1984 and to the 
State Senate in 1988. She served twice as Senate President, twice as 
co-chair of the Senate Finance Committee and chaired the Senate Rules 
Committee.
    She also served as Chair of the Energy Council in 1993-94. The 
Council is a legislative organization of ten energy producing states. 
Venezuela, Alberta, Nova Scotia, British Columbia and Newfoundland are 
international affiliates. While serving as the Chair and on the 
Executive Committee of the Council, she led delegations to Bolivia, 
Mexico, Costa Rica and Venezuela. Ms. Pearce also served as the 
American Co-Chair for the U.S. West Coast-Russian Far East Business 
Commission Ad Hoc Working Group.
    Most recently, Ms. Pearce has been representing Alaska in the U.S. 
Department of the Interior, working as Secretary Gale Norton's Senior 
Advisor for Alaska Affairs. For the past five years, she has provided 
counsel to the Secretary in the development of the department's 
policies affecting Alaska. In this capacity, Ms. Pearce has been 
designated to serve as a Federal Trustee to the Exxon Valdez Oil Spill 
Trustee Council, appointed as a member of the Department of 
Transportation's Technical Hazardous Liquid Pipeline Safety Standards 
Committee, and chosen as the Department of the Interior representative 
to the Arctic Council. She is also the policy coordinator for the 
department's efforts to prepare for permitting and construction of an 
Alaska Natural Gas Pipeline.
    The Resource Development Council strongly endorses the confirmation 
of Mark Myers and Drue Pearce. Both are ideally qualified and will be 
major assets to the federal government in their respective positions.
            Sincerely,
                                              Carl Portman,
                                                   Deputy Director.
                                 ______
                                 
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Domenici: I am writing to you to urge your support for 
two exceptional Alaskans that are being considered for positions within 
the federal government. They are Mark Myers and Drue Pearce. I have had 
the good fortune to cross paths with both of these people at various 
times during my 33 years in Alaska.
    Drue Pearce is being considered for Federal Coordinator for Alaska 
Natural Gas Transportation Projects. She has an outstanding record of 
public service in Alaska for many years, and some experience in 
Washington DC as well. My experience working with Ms. Pearce goes back 
to her days in the Alaska State Senate. There she worked tirelessly to 
make things better for Alaska and Alaskans. She took a no nonsense 
approach to doing the people's work and at the end of the day she was 
able to accomplish a lot. Later she worked as Senior Advisor for Alaska 
Affairs under Secretary of the Interior Gale Norton. In my opinion she 
did a great job there and once again made a big difference for Alaskans 
in particular and Americans in general,
    Mark Myers is up for the Director of the U.S. Geological Survey. He 
has also done a lot of good for Alaska in the various roles he filled 
during his career here. He worked in the private sector on the north 
slope of Alaska where he was an important member of the teams who 
developed many of the projects that have been delivering energy 
resources to the lower 48. Most recently, he worked as Director of the 
Division of Oil and Gas in the State of Alaska Department of Natural 
Resources. There he was able to add a lot of value to Alaska. For 
example he played a key role in managing the generation of much of the 
State's revenue (just short of 2 billion dollars in FY 2005) coming in 
from the oil industry. I have seen Mr. Myers in action and I have 
really been Impressed by his convictions and ethics.
    As someone who hires a lot of people in the private sector my 
experience is that you do not come across people of high quality such 
as Ms. Pearce or Mr. Myers very often. The U.S. Government would be 
fortunate Indeed to have such great people filling these important 
positions. Please seriously consider placing them in the positions they 
have applied for.
            Sincerely,
                                              Carl Portman,
                                                     Anchorage, AK.
                                 ______
                                 
                                   State of Alaska,
                Alaska Oil and Gas Conservation Commission,
                                      Anchorage, AK, June 26, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.

Re: Appointment of Director of U. S. Geological Survey

    Dear Senator Domenici: We are writing in support of the appointment 
of Dr. Mark D. Myers to be the new Director of the U. S. Geological 
Survey. The undersigned Commissioners administer the State regulatory 
agency charged with overseeing all oil and gas operations within the 
State of Alaska. In our capacity as regulators, we have had extensive 
direct professional contacts with Dr. Myers and have found him to be an 
outstanding professional in all respects. He is an exceptionally 
talented geoscientist, a professional of impeccable character, and a 
superior manager of people and resources.
    We believe the nation will be well served by the appointment of Dr. 
Myers as Director of the U. S. Geological Survey. He has a reputation 
for being forthright in his dealings with all persons and in our 
opinion he will make an outstanding Director of the U.S. Geological 
Survey.
    We urge the Senate to confirm his appointment promptly so the 
Nation can immediately begin to benefit from having such a capable and 
experienced professional at the helm of this important agency.
    If any additional information is desired we would welcome the 
opportunity to elaborate on Dr. Myers' many fine qualities and his 
reputation and years of experience as a geologist and administrator in 
Alaska.

                                   John K. Norman,
                                           Chairman,
                                   Daniel T. Seamount, Jr.,
                                           Commissioner,
                                   Cathy P. Foerster,
                                           Commissioner.
                                 ______
                                 
           Press Release from the Department of the Interior

  ACTING SECRETARY SCARLETT PRAISES PRESIDENT'S INTENTION TO NOMINATE 
                      MARK MYERS AS USGS DIRECTOR

    WASHINGTON--Acting Interior Secretary Lynn Scarlett today praised 
President Bush's intention to nominate Mark D. Myers as director of the 
U.S. Geological Survey. The announcement is subject to confirmation by 
the U.S. Senate, once the official nomination is made by the President. 
Current acting director Dr. P. Patrick Leahy will continue to serve in 
the acting capacity until Senate confirmation.
    Myers is an internationally recognized geologist and former State 
Geologist and head of Alaska's Geological Survey.
    ``Mark is known not only for his accomplishments as a geologist and 
state survey manager but also for the consensus building approach he 
has emphasized throughout his career,'' Acting Secretary Lynn Scarlett 
said. ``He brings more than 22 years of wide ranging experience in 
geological science and strong leadership skills to the U.S. Geological 
Survey.''
    As State Geologist and Director of the State of Alaska Division of 
Geological and Geophysical Survey, Myers managed a research 
organization that included 38 scientists and support staff. The state 
survey generates analyses and interprets data on geologic resources and 
natural conditions and maps and inventories mineral and energy 
resources on state land. That information is used by the government, 
private industry, scientists, educators and the public.
    As Director of the State of Alaska Division of Oil and Gas, Myers 
oversaw a professional staff of nearly 100 employees, including 
geoscientists, engineers, land managers, accountants, commercial 
analysts, and auditors.
    Myers, an expert on North Slope sedimentary and petroleum geology, 
served as survey chief for field programs in the MacKenzie Delta (ARCO, 
1985), Cook Inlet (State of Alaska/U.S. Geological Survey, 1997), and 
North Slope (ARCO, 1999). He also served as sedimentologist for 13 
other North Slope field programs.
    Myers is a past president and board member of the Alaska Geological 
Society; a certified professional geologist with the American Institute 
of Professional Geologists; a certified petroleum geologist with the 
American Association of Petroleum Geologists; and a licensed geologist 
with the State of Alaska.
    He served as an officer in the U.S. Air Force Reserve from 1977 to 
2003, retiring as a Lt. Colonel.
    He received his doctorate in geology from the University of Alaska-
Fairbanks in 1994, specializing in sedimentology, clastic depositional 
environments, surface and subsurface sequence analysis and sandstone 
petrography. Myers earned his B.S. and M.S. degrees in geology from the 
University of Wisconsin-Madison.
    The USGS serves the Nation by providing reliable scientific 
information to describe and understand the Earth; minimize loss of life 
and property from natural disasters; manage water, biological, energy, 
and mineral resources; and enhance and protect America's quality of 
life. The USGS is organized with a Headquarters and Eastern Region 
facility in Reston, Va. Central Region and Western Region offices are 
located in Denver, Colo., and Menlo Park, Calif., respectively.
    The 10,000 scientists, technicians and support staff of the USGS 
are located in nearly 400 offices in every state and in several foreign 
countries. With a budget of more than $1 billion a year, the USGS 
leverages its resources and expertise in partnership with more than 
2,000 agencies of state, local and tribal government, the academic 
community, other federal allies, non-governmental organizations, and 
the private sector. Field investigations, direct observations of 
natural science processes and phenomena, and monitoring and data 
collection at the local scale are the scientific hallmarks of the USGS.


</pre></body></html>
